r*

16^

No:

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.

MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

ON A PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

APPENDIX

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-l 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

TABLE OF CONTENTS

APPENDIX A
Eleventh Circuit Court of Appeals, Westmoreland v. Johnson et.el.. No. 19-13759.
Order entered February 25, 2020
[___ ]

APPENDIX BEleventh Circuit Court of Appeals, Westmoreland v. Johnson et.el.. No. Judgement
entered Junel 1,2020
[___ ]

APPENDIX CNorthern District of Georgia Order, Westmoreland v. Johnson et.el.. No. 1:14-cv01315-TWT. Judgement entered July 31,2019
[___ ]

APPENDIX DNorthem District of Georgia, Westmoreland v. Johnson et.el.. No. 1:14-cv-01315TWT-CMS. Report and Recommendation entered June 26, 2019
[___ ]

APPENDIX EConstitutional provisions, treaties, statutes, ordinances, and regulations involved in the
case, (set out verbatim with appropriate citation.) [Rule 14.1(i)];
[___ ]

APPENDIX FEleventh Circuit Court of Appeals, Westmoreland v. Warden et.el.. 817 F.3d 751 (11th
Cir. 2016). Judgement entered March 30, 2016
[___ ]

APPENDIX GNorthem District of Georgia, Westmoreland v. Grubbs et.el.. No. #2012 U.S. Dist.
LEXIS 1 18733 (N.D. Ga. 2012). Judgement entered July 23, 2012
[___ ]

APPENDIX HGeorgia Supreme Court, Westmoreland v. Johnson. No. S16H0557. Certificate of
Probable Cause denied September 6, 2016
[___ ]

APPENDIX IRvan v, Thomas. 409 S.E.2d 507 (1991)

APPENDIX J-

[___ ]

State v. Jackson et al.. 697 S.E.2d. 757 (2010)

[___ ]

APPENDIX KGeorgia Supreme Court, In Re: Formal Advisory Opinion 10-1. 744 S.E.2d 798 (2013)
................................................................................................... [____ ]

APPENDIX LHancock County Superior Court, Westmoreland v. Johnson. No. 1 l-HC-034. Docket
Report
[___ ]

APPENDIX MCobb County Superior Court, Westmoreland v. State, No. 07-9-6020, Extraordinary
Motion for New Trial- Order entered June 9, 2011
[___ ]

APPENDIX NCobb County Superior Court, Westmoreland v. State. No. 07-9-6020, Extraordinary
Motion in Arrest of Judgement- Order entered June 9, 2011; April 9, 2012
............................................................................................... [_____]

APPENDIX OClient-Lawyer Letter from Louis Turchiarelli

L__ ]

APPENDIX PClient-Lawyer Letter from William Carter Clayton; June 29, 2010

[___ ]

APPENDIX QResponse from the Georgia Supreme Court Clerk; July 15, 2010

[___ ]

APPENDIX RState and Federal Habeas Corpus- Trial Counsel Ineffectiveness Claims
[___ ]

CERTIFICATE OF MAILING

[___ ]

CERTIFICATE OF SERVICE

[___ ]

APPENDIX A-

Eleventh Circuit Court of Appeals, Westmoreland v. Johnson et.el.. No. 19-13759. Order
entered February 25, 2020.

Wiflii.itAtiMf loim tn awkaim
vm TIIK iaiJCVKNTI I CIRCW

ilWtill Mm*
I w *<*»**

1*mm ■*■&§■

Mwuiiry M mm
Amm Wmmntim*
' *Mk SI* innuM? I*ggf Mail
IHt iiox ?50
UNAmiJ^ aa nmt

*md**wkw

CounW^^yifli the .pplicUon for i Certificate of
M im Ctf* R, 41 -4, Counsel and p* *
^^mmmbcm2wS?i!t°»
* rt'2r*molion*rccom.dcr. vacate,
tllowcd for mailing day* of *** cntr>' °* **»*> order. No additional lime shall be
Staeaeiy,

mvm 1 SMITH* cterk of Court
Iteply to: Craig Stephen Gantt. B
Phone # 404035-6170
HncJusun*^
DIS-4 Multi-purpose

Scanned with CamScanner

c*sr

, Date

of i

W THE UNITED fTATES COURT OP APPEALS
K» THE ELEVENTH CIItCUTT

WARDW,

warworn*, obokha dwahtmekt orcouxcncm.

To merit a

“7I

IMihi. ArMUJ.C. |22H(e)p);.B**
r»

uiiu>«TATB»c»nwra)5i

Scanned with CamScanner

A PPENDTX R-

Eleventh Circuit Court of Appeals, Westmoreland v. Johnson et.el.. No. Judgement entered
June 11,2020.

Casa: W137S9

DateFtted: 06/11/2020

Page 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. I9-IJ750-B
AMOS WESTMORELA NO.
Petitioner-Appellant.
versus

WARDEN.
COMMISSIONER, GEORGIA DEPARTMENT OF CORRECTIONS,
Respondents-AppeHces.

Apped from the United States District Court
for the Northern District of Georgia
Before: GRANT tad LUCK, Circuit Judges.
BYTHECOURT:
Amos

Westmoreland has filed

a motion for reconsideration. pursuant to
11* Cir.R. 22.1(c) to* 27-2, of dm Com', Feb™,, 25,2020, order denying .
of
to bleqved ftom the deotol of hi, 21 US.C. J 2254 tabem empm pwhh. Vpm
‘ "Wftod For recoruiderstiofl i, DENIED because be Im offered no new
evidence or arguments of merit to warrant relief.

Scanned with CamScanner

J

APPENDIX C-

Northern District of Georgia Order, Westmoreland v. Johnson et.el.. No. 1:14-CV-1315-TWT.
Judgement entered July 31, 2019.

Cm

,14-ciH)i3lS-TWT Document 104 FiJeo 07/31/19 Page I o*3

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND, JR..
Petitioner.
■v.

CIVIL ACTION FILE
NO. LlA-CV-ms-TWT

GLEN JOHNSON
WARDEN, etai.

ORDER
This is a pro sc habeas corpus action by a state prisoner- It is before the Court
on the Report and Recommendation IDoc 00] of the Magistrate Judge
r«»nimending denying Che Petition. The Petitioner iis serving a life sentence for
felonymurder. The Georgia Supreme Court summarized the fts

ofthcPetitioner’s

as follows:

^jTZ

, ..

Ge°rge Wcm

in Marietta,

to* parked m the Werm dnveway; the car doors were open

Scanned with CamScanner

Case 2 34 ^^231& rWT Document 104

07/3^^^ Page 2 of 3

iiMl no occupants were visible inside. The police were noticed and a
marked patrol car arrived in the area as the blue station wagon was
leaving the neighborhood. The officer activated his blue emergency
lights and siren in an effort to stop the vehicle; however, the driver of
the station wagon failed to accede to the officer's signals, and instead
drove his vehicle onto Interstate 573 northbound. Additional patrol cars
joined in pursuit. The driver of the station wagon continued his attempt
to eiude thc poiicc, and in the process, a large screen television taken
from the Wem home dislodged from under a tarp on the roof md
crashed onto the roadway. After the police attempted a box maneuver
to stop the fleeing vehicle* the station wagon executed a U-tum ln the
median and drove into the southbound lanes of Interstate 575 where it
collided with a Quick being driven by Robins and occupied by four
passengers. The Butch roiled over twice and landed on its side* killing
Robins and seriously injuring the front seat passenger. Both the driver
and passenger in the station wagon fled on foot and were pureued by
the police and soon apprehended. Georgia identification cards inthe
pockets of both suspects identified the driver as appellant
Westmoreland and the passenger as appellant Williams. Items taken
from the two burglarized homes were found in their possession as well
as in the station Wagon,

12(2010), The
grounds for relief staled in the Petition are set forth in the Report and
Recommendation. The Petitioner has Hied Objections to the Report and
Recommendation but fails to provide any basis for the Objections. For
example, the Petitioner objects to the Magistrate Judge considering the Order
of the State habeas corpus court. His claims of ineffective assistance of
counsel based upon a “conflict of interest” are totally without merit. He fails
to state any basis for overcoming the Magistrate Judge's findings of
ii

2

if -n
Scanned with CamScanner

Cate 114-CV-01315-TWT DocumentlOS Filed 07/31/19 Page 3 of 3

procedural default as to die vast majority of his claims. Claims of errors of
state law by the Georgia Supreme Court and the state habeas corpus court fail
to fbmish grounds for habeas relief. The Court approves and adopts the Report
and Recommendation as the judgment of the Court: The Petition is DENIED.
No Certificateof Appealability will be issued.

SO ORDERED, this 31 day offJuly* 2019.

/s/Thomas W, Thrash
THOMAS W. THRASH* JR.
United States District Judge

3

Scanned with CamScanner

IW*p» $**&*<?

I Jk tMMrtrt C«

mtl
U**!M*»T- «d fiMan TfJiMw

»

««l

LM^4^Jt,vrwT
r-m

m

IMKMMLUVTWT !<

bm txmxt

by

•K

LJ*
CDC*54te»:
DMtt; ~

Umm*GAiim
wifeitt

s^.r:s2s,3,sss:r

Scanned) with CamScanner

Case l;l4-ev*013l5-TWT Oocumem 105 Filed 08/01/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND* JR.,

CIVIL ACTION FILE

ve.
GLEN JOHNSON, Mferclwi, and BRIAN
OWENS, G.D.O.C. Cmmnkmkmm.
Respondents.

NO. 1:1A<sv-131#.TWT

IMMUiil
This petition for s writ of habeas corpus having come before the court, Honorable
Thomas W. Thrash, United States District Judge, for consideration of the Magistrate
Judge's Final Report arid Recommendation, and theCourt having APPROVED and
ADOPTED said recommendation , it is
Ordered and Adjudgad that thepetition for a writ of habeas corpus be, and the
same hereby is, denied and dismissed. No Certificate of Appealability will be issued.
Dated at Atlanta, Georgia, this 1* day of August* 2019.
JAMES N. BATTEN
CLERK OF COURT

By; a/..BJMalHtr

Deputy Clerk

Prepared, Filed and Entered
in the Cleric's Office
August 1,2019
James N. Hatten
Clark of Court
i* «/8, Walker
Deputy Clerk

Scanned with CamScanner

CMflCHGA Northern Diurta Cowl

Othor Evrmto
uiartiiliHWf
Omon»>a.Z2S4,C*«5.HA«EAS,meO(>«N,BLC4.BUBMOJ
VS. tHrtrtrt Cewrl
Norther* Mtirtrt ol Gtarfte

onH'MIV w !J 19 PM tsDT end ttlrton Wiaoio
*:■:

Lite Wl 5:158a

Ci
FB»T5
:*i

ms

Dwitl T»»»;

CU^^JWDO<reNT:«l»0«»«»fJ»ndA«flua»^th«illKip«»HJOHforawinofhabM«corpu*l»,aftdth*wim«h*ratry»»,a.ni««}
«X> dtomto—d. Wo CortWcotool App—tobfflty wffl bo hotrod. (brw)-PI*»»* rotor to http:/h»««».e*11,u«court«.9ovto obtiln on

l;l*~o-0U»5-TWT Xolke luti bet* ehttrooWeHy *m1M to;
M*the« Blackwell Crowder

mcrowdengtowgofov. punUNglow ga,yov

1;I4-t*-flm5-TWT Node* hoi be** MNend by adter OMOM to;

GDC IMi&HI
Dooly Slate Pnsan
TO BOX •’50
I 'ltediUa. GA >1191
' The CaBoMfef document! n ore.

wtft tba transaction:

[STAMP dnecKtiio lD*10M«fttt$3 {DMC-Vt^OlO] tFiUNumbeft0t9l«W>

\ iJJ7W)»5«22nn 25fi&97b7J74te06,n»7ili«d»a}S$to69 IWIWblbeeeldMn
1^l»*^9«>h«w65*4»a$M»en7leWIJ0M5M8«JJ3<lSe3«»ae73l5063J

Scanned with CamScanner

APPENDIX D-

Northern District of Georgia. Westmoreland v. Johnson et.el.. No. l:14-cv-01315-TWT-CMS.
Report and Recommendation entered June 26, 2019.

r

{

!

i

' .

Casel:J4 CV01315TWT Document 99

Filed 06/2G/1S

aye* of 31

^S?S5SSS5S5K1S?®S^®
a
ATLANTA DIVISION
1
i

AMOS WESTMORELAND, JR.t
GDC ID 1041829,
Petitioner,
V.

s
i

GUN JOHNSON, Warden,
Respondent

:
:

HABEAS CORPUS
28 U.S.C. 12254

*.

i SSK5SnSi~

MNA1, REPORT AND RFCOMMENDAXiON
This is a pro se habeas corpus action brought by Amos Westmoreland,
Jr., a stale prisoner. For the reasons stated below, I RECOMMEND that

Westmoreland's petition [t], as supplemented (87], be DENIED because he
is not entitled to federal habeas relief on any of the 62 grounds for relief that

he raised, and I further RECOMMEND that a Certificate of Appealability
be DENIED.
Hie Georgia Supreme Court summarized the facts that led to
Westmoreland’s conviction and incarceration as follows;
[Ojn the morning of May 17, 2007, homes belonging to
Alison Murphy and Jeanne and George Wem were burglarized
in Marietta, Georgia. Among fhe numerous items taken were
jewelry and a large screen television set.
That morn ing a neighbor driving in the vicinity of the Wern
home observed tvk'o young males in a blue, older model station

Scanned with CamScanner

r

U-;i
Case i:14-cv 01315-TWT Document 99 Filed 06/26/19 Page 2 ot 31

wagon, with a blue tarp tied to the roof, and no license plate
displayed. The neighbor became suspicious and followed the car.
She observed it minutes later parked in the Werns’ driveway; the
car doom were open and no occupants were visible inside. The
police were notified and a marked patrol car arrived in the area
as the blue station wagon was leaving the neighborhood, 'flic
officer activated his blue lights and siren in an effort to stop the
vehicle; however, the driver of the station wagon failed to accede
to the officer’s signals, and instead drove his vehicle onto
Interstate 575 northbound. Additional patrol cars joined the
pursuit. The driver of the station wagon continued his attempt
to elude the police, and in the process, a large screen television
taken from the Wcm home dislodged from under a tarp on the
roof and crashed onto the roadway. After the police attempted a
box maneuver to stop the fleeing vehicle, the station wagon
executed a U-turn in the median and drove into the southbound
lanes of Interstate 575 where it collided with a Buick being driven
by |Barbara Turner] Robins and occupied by four passengers.
The Buick rolled over twice and landed on its side, killing Robins
and seriously injuring the front seat passenger. Both the driver
and passenger in the station wagon fled on foot and were pursued
by the police and soon apprehended. Georgia identification
cards in the pockets of both suspects identified the driver as
appellant Westmoreland and the passenger as appellant [John
Edgar] Williams, Items taken from the two burglarized homes
were found in their possession as well as in the station wagon.
Westmoreland v. State, 699 S.E.2d 13,16-17 (Ga. 2010) (footnote omitted).
In addition, “ft]he evidence at trial established that the pursuing vehicles did
not exceed the posted speed limit." Id. at 18 n.3.
Westmoreland and Williams were jointly indicted, tried, and
convicted. See id. at 16. Both were found guilty of burglary (two counts),
attempting to elude a pursuing police officer (two counts), operating a
2

\K 1! !»

Scanned with CamScanner

r

\

li

Case 1:14*

315TWT Document 99 Filed 0C/2G/1

jge 3 Of 31

vehicle without a secure load, felony murder predicated on burglary, felony
murder predicated on attempting to elude, ninlohsiruetum of a police officer.
5tet«/. at 17 n.i. Westmoreland was also found guilty of reckless driving,
homicide by motor vehicle, and serious injury by motor vehicle. See id.
Both defendants were sentenced to life in prison for felony murder while in
the commission of a burglary, and Westmoreland received a consecutive 15year sentence for serious injury by motor vehicle and concurrent 12-month
terms on the misdemeanor counts. See id. “The remaining counts were
merged or vacated by operation of law." Jd.
Westmoreland filed a motion for new trial through his trial counsel,
David Marotte. This motion was amended twice to raise additional issues by
new counsel, Louis Turchiarelli.

When that motion was denied,

Westmoreland appealed through a third attorney, Carter Clayton.

On direct appeal, Westmoreland contended that (1) "the evidence
adduced attrial was insufficient to provefelony murder because the death of
the victim was not committed 'in the commission1 of the burglary, but after
the burglary was completed and he was attempting to flee,” (2) "the trial
court abused its discretion because it improperly abridged his right to crossexamine one of the investigating officers concerning Cobb County's vehicle
3

Scanned with CamScanner

I;
Gnsc J:14 cv-01315-TWT Document 99 Filed OG/2G/19 Page 4 of 31

pursuit policy," and (3) "he was denied effective assistance of counsel at trial
and on motion for new trial" because (A) “trial counsel was .ineffective in
failing to properly investigate and present evidence of Cobb County’s policy
concerning pursuit of a fleeing suspect" and (11) “Ins first post-conviction
counsel was ineffective because he failed to attach to bis motion for new trial
a written addendum to Cobb County's vehicle pursuit policy which restricts
vehicle chases in cases involving crimes such as burglary.” Id. at 17-19The Georgia Supreme Court rejected Westmoreland’s first argument
::::

'

........................

because, as a matter of state law, the burglary was deemed ongoing “during
iitheieseape::^

felony" and theiprsuit epuld not be considered an

“intervening cause of the collision.” See id. at 17-18 (citing 0;C.G.A § 40-66). The Georgia Supreme Court rejected Westmoreland’s second argument
because trial counsel did not preserve an objection to this limitation on crossexamination in the manner required by state law, thus waiving the issue as a
basis for appeal. See id. at 18. And the Georgia Supreme Court rejected
Westmoreland's third argument based on its determinations that (A) trial
counsel made an “informed strategic decision” not “to suggest to the jury that
the conduct of the officers was tlie proximate cause of the fatality because he
was attempting to convince the juiy to acquit on the felony murder charges

::::
Scanned with CamScanner

i

cv 01315 rwr Document 99 Mind Q&miV Pay* Sot 3*.

•ad to find Wostnioioiand guilty of •jcwer offense* nod (B) post-convict ion
counsel s failure to attach the Cobb County vehicle pursuit policy had not
prejudiced Westmoreland because there was "no reasonable probability that
such evidence, had it been introduced, would have resulted in a favorable
ruling on the motion for a new trial a Id. ot 19.
After "Westmoreland’s conviction became final on October 25, 2010,
... he filed an extraordinary motion fo r a new trial in the Georgia trial court
on May 2, 2011,

Westmoreland v, Warden, 817 F.3d 751, 754 (nth Cir.

2016). Shortly after "ft]he state trial court denied the motion on the merits
«n June 9.2011,- Westmoreland -filed his state habeas

petition on October

28, 2011,* Jd. And, while his state habeas petition was still pending,
Westmoreland initiated this case by si
signing and"filing* a federal habeas
petition on April 25,2014. See [1] at 68.
Warden Johnson moved to dismiss Westm
oreland’s federal habeas
petition on the grounds that it
was untimely and/or that he had failed to
exhaust all available state remedies. See (n).
in October 2014, Magistrate Judge E.

Clayton Scofield III entered a

Kinal Report and Recoin menda tion
recommending that the oise be
dismissed as untimely, without reachin
8 lb® issue of exhaustion. See [223.
5

Scanned with CamScanner

Case l.I4*cv*0j3iS-TWT Document 99

Filed 06/26/13 Page 6 of 3*

la December 2014, the Honorable Thomas W . Thrash, Jr. dismissed
this case, stating that:
Although the Petitkiner appears to argue that the one year
limitations period was toiled while his pro se extraordinary
motion for new trial was pending, he does not address the
Respondent’s claim that this action was .filed while the
Petitioner's state habeas corpus action was still pending . - • ♦
Indeed, that is undisputed. Therefore, this action should be
dismissed for lack of exhaustion of state court remedies.
(26] at l.

In March 2016, the Eleventh Circuit reversed and remanded,
concluding that “[t]he District Court held that the petition was untimely
based on the limitations period in 28 U.S.C. § 2244(d)(1)." Westmoreland,
817 i%3d at 752, The Eleventh Circuit concluded that “[t]he District Court
dismissed Mr, Westmoreland's petition without properly considering the
effect of the extraordinary motion for a new trial* and observed that “[t]he
state bears much responsibility for this mistake," because the state omitted
that pleading when filing the record and then objected when Mr.
Westmoreland twice moved to have that motion added to the record before
this Court. Mat 754.
Tlie Eleventh Circuit noted that, on appeal, the state "eoncede[d] that
‘the petition was timely fUed* because the 'one-year (federal limitations]
6

Scanned with CamScanner

Cluw 1:14 ev-oisis TVi^r Document99 Filed 06/26/19 . age 7 of 31

period should Iwive been IoIIchJ while the extraordinary motion for new trial
was pending in lhe Gcorgui ejinils. " hi. (qtintingtlu* slate’s Brief). And the
Eleventh Circuit further noted that "|i]f the state bod made this concession
back in 2014, when Mr. WestmmelntiU repeatedly pointed the state's
attention to his state-court motion. then the District (fotirt would have had
the means to decide the timeliness issue correctly the first time around.” hi.
The Eleventh Circuit “deelinefdj the state’s invitation to consider the
exhaustion issue” on appeal. Id. at 755. Rather, the Eleventh Circuit directed
this Court, “fwjhen considering the exhaustion issue on remand. ,,,. [to]
determine whether cause and prejudice excuse any possible failure to
exhaust,” and, M[i]f not, [whether) a stay and abeyance is proper while Mr.
Westmorelaiid exhausts state remedies * Id.

♦Judge Thrash ordered that the mandate of the Eleventh Circuit be
made the judgment of this Court, see [41], and denied Warden Johnson’s
Motion to Dismiss, see [43].
Warden Johnson filed a Kenewed Motion to Dismiss Petition for Lack
of Exhaustion. See (44]. f entered a Final Report and Recommendation
recommending that the motion to dismiss be granted, but subsequently
vacated my recommendation when Warden Johnson filed a notice
7

..... -i.J

Scanned with CamScanner

Case 1:14 CV 01315 TWT Document 99 Filed 06/26/1» Page 8of31

acknowledging that Westmoreland's state habeas ease had finally reached its
end, ft*t47}, l-Wl8r (5<»)
This matter Is now before me on Westniiimland's petition | if, as
supplemented to add three additional ground* for relief |H?1. Warden
Johnson s Second Amended Answer-Response |oij and Brief |*n i |. and
Westmoreland's tOS-page singied-speed “Rebuttal and Supporting Brief
(t,e, Traverse) luuj,
! have construed Westmoreland's filings liberally because he Is
proceeding pro s*. See, e.gM Dupree e. Wartfcn, 715 I' dd 1205. it# (nth
Chr. 2013), Nonetheless, it is useful to begtin by quoting Westmoreland’s 62
grounds for relief verbatim.
(*1

"Substitute Appellate Circuit Defender foiled to raise conflict of
interests with the Cobh County Circuit Defender’s Office,** f 1] at
hi

(2) “Substitute Appellate Circuit Defender foiled to review the entire
record to raise core constitutional violations on Petitioner’s only
appeal as of right,” | i] at 7;
(3) ’‘Substitute Appellate Counsel sent Petitioner a letter stating that
as of 6/2»/to Petitioner’s case was final and Petitioner had 4
years to challenge conviction by way of Habeas Corpus,
Petitioner filed an unsuccessful Motion for Reconsideration to
the Georgia Supreme Court, Counsel failed to withdraw in
writing and Petitioner had to dap to file the motion." ( i | at B;

H

Scanned with CamScanner

(4) several
“Throughout
habeas
proceeding.
(Duer
groundstheaml/or
clatas
of constiU»tiona^m^^^w
Process) in which the Georgia Supreme
court's decision. Petitioner filed ft 42 U&&. 8 *983 _ nermiia
Action against (13) public officials, including th_7 _
Supreme Court Justices Standing on 6/28/2010. Hue ,Pu^f^
claims raised include grounds ra ised in State and federal habeas
corpus.** (i] at 0;
(5)

“After makeshift arraignment on January io, 2008, Petitioner
was appointed several public defenders until trial commencea on
10/20/08. On 1/30/08 an impermissible conflict of interest was
imputed to the Cobb County Circuit Defender s Office." [1] at 10;

(6) “Trial Court did not adequately appoint effective assistance of
counsel during pre-trial detainee stage. Petitioner was appointed
multiple Cobb County Circuit Defenders assisted by (Mary Pope)
<Circtiit Defender Representative> prior to Petitioners capital
felony trial. Trial Court failed to initiate an inquiry into the
existence of conflict." [1] at; 11;
(7)

"Petitioner was denied the right to be present at critical stage
when he was held in a small, cold confinement cell on 1-10-08
while initial public defender waived formal arraignment. Days
la ter, an undisclosed conflict occurred and initial public defender
was abruptly removed from the case. Consequently, after
multiple undisclosed impermissible conflicts of interest occurred

with the Cobb County Circuit Defender’s Office, Petitioner saw
his Indictment 2 weeks prior to capital trial." [1] at 12;
(8) “On 1-10.08 Petitioner was absent from makeshift arraignment
wjich waswaived byinitial appointed circuit defender. On 1-30G n ICt °CCU^ed and Gary Walker was appointed to the
Un. 4-30-08, counsel requested and was granted a
wthdram,! cling 'personal problems.’
Counsd Sver
established any type of communication with Detitinner m

^d) p«ao.„

dl!coveiy, indktme„t 0S"““ ”
Scanned with CamScanner

Cast 1;14hcv 01315 TWT Documenl 99 Filed mmm Page lO of 31

(9) "Counsel was appointed less than .go days prior to Petitioner^
capital felony trial; At the time of counsel's appointment, all
previously filed motions by Circuit Defender's Office (including
Motion to Hire an independent Investigator to aid in preparation
of the defense) were disregarded. Counsel was 4,h Circuit
Defender in 8 months due to conflict.” [i] at 14;
(10) "Trial counsel was previous law clerk for Milton Grubbs (Trial
Courtis husband), and the conflict or possibility of a conflict was
never properly raised by Trial Court or counsel. The issue was
elicited by Trial Counsel after trial during Motion for New Trial
Hearing. Exercising due diligence. Petitioner found counsel was
previously an associate @ Grubbs & Grubbs with Trial Court and
husband,” [1} at 15;
(11) “Trial counsel practiced law and was an officer of the Court for
30+ years in Cobb County and had never, until Petitioner's case,
stood a case in front of Trial Court. Issue was never properly
mised 10 assess the possibility of » conflict; especially
considering the limited time to prepare, 40% of counsel’s cases
were.criminal, the complexity of the possible defenses and
seventy of the punishment." |l]ati6;
°Z) IwV"? j0unsel's “PPO'ntment, Petitioner advised counsel
that he had never sfeen] his Indictment. Counsel sent
Drio'rtoehiby
P^?"CT waived Indictment 2 weeks
h,s “P"81 felony trial. Counsel never went over the
Indictment with Petitioner." [1] at 17;
^ record

ne?fectcd to disclose several possible conflicts on

relevant for
af Tria'lC 0rr(!:o'?sid?*d
J*" Wiled in a|n] auto-rela.eda«Td“n.l' WTrial
l«e husband were previous law associat^ ^th TriaK^"
(1) at 18;

10

Scanned with CamScanner

Case l:i4-cv-01315-TWT

Document 99 Filed 06/28/19 Pf

10131

(14) On 10/14/08 a pretrial motion hearing was c0°^CtJ*?vei^a
vrith^TriaJ Court^Prosecutors antf(4^DefenseCounsel[HCfrcuit
Defenders) to discuss capital trial related issues. Petitioner was
absent from such hearing, and the results of the hearing L J
not made known to Petitioner, verbally, through either 1 r«
Counsein, Trial Court, the State, or through valid transcripts.
Transcripts show that hearing did in fact take place, [i] at 19»
(15) “Prosecutors slated in pretrial motion hearing that the state
(would] not placfe] any medical examiner photos into evidence.
The medical examiner photos were later placed into evidence by
the prosecution during trial (over defensfe’J objections)." [i] at
20;

(16) 'Trial counsel reluctantly adopted special demurrer challenging
a void count in the Indictment. During initial pretrial hearing,
counsel adopted withdrawal of said motion for tactical purposes,
Counsel offered absolutely no evidence or defense to substantiate
the lactic to influence the jury to find petitioner guilty of a lesser
offense," [i] at 21;
(17) Trial, counsclf] were advised at motion hearing by trial court
that no (2) counself] could argue an issue with their respective
co-counsel. During closing arguments, both trial counself]
showed their confusion on the ruling. Petitioner’s co-counsel,
Kick Christian, never verbally, constructively or sufficiently
assisted] the defense." [1] at 22;
(18) Both of petitioner’s trial counsel [j (circuit defenders) fail [ed] to
raise conflict of interest; with the circuit defenders being the 411'
and 5"' court appointefd] to represent petitioner within 8 months
due to conflicts with the Cobb County Circuit Defenders Office.
Rick Christian was petitioner’s 5*** circuit defender, sent through
the Circuit Defender’s Office to observe trial. Nonetheless
counself] were inexperienced in capital felony cases." [ 1] at 23;'

Scanned with CamScanner

Cas*l;14tv

(l9)

45 TWT Document 99 riteti

fai,ed to raise conflict of

. ,.0#ri2'wl 31

interest considering the

!5S®S=SSS«5ft
^after

(20)

n peti!?oner on (3) separate occasions for
materia" a^^Jly ™* “«* » *» «*w «W diseo^Sv
Indictment Penn?””' onP tnal strategies or tactics, or the
time during Canitarfei”"^ °fthc sta,e s evidence tor the first
evidence i^aid ofthedSl^”1 9^0 did not offer any
imprisonment” Writ#
'cons,derln* Petitioner facing life
process by^ahurt^Hk5r°aecUtofs v’°*aled Petitioner s due
was

IZtT^r^ "'hieh

Of the eriden«-fltr.a6-

Facts of w^hi“* the snff&ncy

(22) e*nosed^~!,^ed
•’Trial
{j.’S#* '"to whether the jurore

were
case was

pHSSawsa
-etirioner-s name and

(23)

****** P«“P* ***»
examination concerning the Dolicv anTn
vehicle with the caff ftat
objected to by the state and sustained^

?uring w>ss'
for I******
examination was

“—- "rJS'sn;•nss,t5 s
12

Scanned with CamScanner

Cast 114 cv 01 J15 1WT Documenl 99 Filed 06/26/19 Page 13 of 31

evidence, The trial court-failed i<< order disclosure of evklerice.
fljataB;
(»4) "Trial court alnmed discretion iiinl allowed the prosecutors
{state) to dictate the entire'trial.. Trial court allowed evidence to
he presented during the state's opening statement, over
ubjectKiri* The entire videotape olthepojire pursuit was played
during the State‘s opening, and evidence was admitted into
evident later, during capital felony trial." [i] at 29;
(as) "Trial counsel!) failed to obtain the Police Chase Policy requested
bv petitioner prior to trial. Both circuit defenders were advising
petitioner during trial that they were attempting to obtain the
document. After trial counsel revealed he sent co-counsel then
co-eounselfsj secretary or assistant to retrieve the policy, and he
had never read the policy, Co-defendantf's] counsel had the
policy; and he didn't plan to get the policy." (i) at 30;
(^) “Trial counsel neglected to request a proximate cause or
intervening cause July instruction in regards to felony murder
and vehicular homicide*'' [i]at3i;
(27) “Trial counsel instructed the Jury during defensive closing
arpiments to find petitioner guilty of several serious felonies
without securing petitioner's consent, permission or approval of
this tactic (including 11 of 14 indicted crimes).” [1] at 32;
(2B) "Triafcoimsel changed his reasonable doubt requested charge ‘to
help the jury commissioners out.’" [lj at 33;

"S3~sSS=~r
jggssiSSaSSS
CO-

13

Scanned with CamScanner

Case J .'J4‘cv.0l 3J 5-iV/T Dooimom 99 Piled 0G/26U9 Page 14 of 31

f.'iw) t During dosing arguments, (lie prosecutors improperly
influenced iJte inn' on i) wind consist of felony murder
(nmglar>'), 2) about police expectancy, and 3) about the
continuation of the acts because Petitioner was in Cobh County
our county. Also during closing arguments, the prosecutor
misted the jury «n what consist of felony murder predicated on
burglary. fi|at33;
f30 "Trial court abused discretion when she denied Petitioner's
I mot ion for aj directfed] verdict on felony murder (burglary)
j.*cca,wj° 11 was dearly finjsufficicnt evidence to support a
Lrortil?"-it ,ali UlC, ,M,rK,f)°' continued until the homicide
Petitioner"£? c,cn.r,>'nnd .legally complete when
to commit •» r C|r0< t{,c dwelling without authority with the intent
to commit a felony or a theft.” [i] at 36;
<32) hunmln/hUr \h° tTh] Cffrt advised attorneys not to object or
,
u r charge to (he Judges of the Law and Facts The
chaw was extremely long and counself) failed to object Vo
several objectionable issues. The jury asked for ■■ VJ-hi™,. *
wnllcn interpretation of the law and how it
rec"aISe. a
sndwhen did the commission of .hi Cg^condudV TriVi

She

lhc •»*«*» of

inlcijirctalion of .l,eVawV"d sVlfen did
f?r "Ti"“
burglary conclude?’ The tnciiiirv wasn't 1C CWI?,niss,on °f Ihe
allowed it to dissipate ThpXtn? ,asn J answered and trial court
from the evidence presented intheX!"T?al gflftingUishablc

rihirglaiyjfVn,^Immidde'muVI'"veh1°" ‘-Cl""y Murdcr
1,10 IH>!a«'fnl act.... it js „ot C„1I|1 |i’ f,V dVnccarry>ng out
f™'. or presently, after th ” I) m V™ h°micide °«<™d

Id

Scanned with CamScanner

C«siu M tvtii ii*, iWI Iiitctinifiiii m

mmmsum

t*w:Uf^M

whifn it is rommiilnl l»y tin* iinuw'd whih* <*nKHK**d in tlw
of tiny net tfor tin* (tillbacilli ion/of thi*
hurgl«ry.‘ The jury
when did Um* i urnmission of the
nurghuy conclude. Tin* butgliiry wits t oniplclc when petitioner
entered dwelling,* |ij iit 3^;
(35) "Indictment (0760511)) nlieges (si) countsor Ailempting to Elude,
flnd n oiJinH of l^elojiy Murder predicate! d I on Attempting to
“todfc *I1»e Imliettnent dofeHj not |illegiblej which Attempting
tollinlc sent's iis the underlying felonlyj for the Felony Murder,
Petitioner was convicted on all (3) counts." ft) nt 40:
^35)

ir_.iCtmCnt
aUeges (2) counts of Burglary, and a Count
of felotjy murder predicateldj on Burglary. Hie Indictment does
uert el[]icit which Burglary serves as the underlying felony for
at41”^ ^Ur<^er' ^'tioner was convicted on all (3) counts." (ij

(37) *Vdiicular homicide count void where it fails to establish each
md every essentia] element ofthe crime charged, predicated] on
Driving as in Count n.* The Indictment fail[ed] to
establish a violation ofstatutoiy law, failed] to establish what
degree, failfed] to establish felony or misdemeanor, failed to
establish each and every essential dement in a single count.” [1]
at 42;

(38) “Vehicular homicide predicate^] on Count li (Reckless
Driving); Serious liyuiy by Motor Vehicle predicate^] on Count
ti (Reckless Driving); Reckless Driving Count was merged into
15 year consecutive sentence on Serious Injury by Motor Vehicle,
predicatefdj on Reckless Driving.
Vehicular Homicide
predicate^] on same Reckless Driving Count was merged into
life Sentence (Felony Murder)." [ij at 43;
(39) “Petitioner was indicted, tried, and convicted on (2) counts of
Felony Murder, all underlying felonies supporting Felony
Murder counts, and Vehicular Homicide and there was only one
death involved." [1] at 44;
15

Scanned with CamScanner

£*»*■■*■

» m&& (MSSflS ^apr'ISOf 31:

(4®) *Prtilio*wt w»* imiuted tnH. onintivd, and **»nt cured on 7
WHIM* of Ttlkr^o f Uniform K».ad Knle*». O.CO A : and all ”
ffUfcWiptiiryd from the vehicle pursuit;; vaJkl rtatute 40-6~6( d){ I}
^ df;*)
In poifcitas and causa-lfon* and 'proper law
«mfofeim»f>fit procedure*
The proper law enforcement
f4wm4um m ?H7**>7 was vehicle piirmot* were prohibited for
foimlarr “ jilaf 4§iN*)

(42)

During llwtfon for New Trial hearing, trial court threatened
initial appellate counsel that she would recess proceeding to a
“fy*j?***- mien appellate counsel was actively exam in i ng trial
counsel about failing to obtain the pursuit policy after the court
had ruled it to he the highest and best evidence Trial Court also
openly expressedand intimate(dj her personal opinions on the
scope of what a high speed chase consisted of to her,* [ i j at 46;

During Motion for Hew Trial, prosecutor advised initial
aPPffrte counsel that the state realized that counsel hada
certified copy of die policy. So defense-subpoenaed witness
testimony was not necessary. The witness was initially
subpoenaed to testimony to the validity and effectiveness of the
policy presented. Hie evidence presented was outdated and did
not reflect the policy active on 5-17^07.* [i]at47;

(43) initial appellate Circuit Defender was ineffective when be
advised the Court that the state told him that they realizejd] that
hehada certifiedcopyof the policy, ifmplyingJ that defensesubpoenaed witness testimony was not necessary. Counsel
proceeded with the state's concession without countervailing
proof or argument. The witness (Record Custodian) was initially
subpoenaed to testify to the validity and effectiveness of the
^enceattached to Motion; which was subsequently outdated."
(44) “In denying Petitioner's Motion for New Trial, Trial Court

16

Scanned with CamScanner

Case 1:14 *v-o I'll D !WT OocurnOrt!99

rm tmmn^

& 3:1

the Judges of the Law ami Fads. The elements in the res
gestaefj' application ate very distinguishable front the Felony
Murder in Commission of Ilurglan Charge/lnstructions to the
Judges of the Law and Fads. Conclusion of Burglary was
questionable." [1)0(49;
(45) “Denying Petitioner's Motion for New Trial, the judge ruled she
didn't allow counsel to cross examine officers concerning the
policy because there wasn't a copy presented to the jury, and
there was absolutely no disregard by the officers ‘dMDfigJllfi
chase,' A certified copy attached to the Motion for New Trial
would not have revealed any. The policy was not relevant. The
policy was the ‘highest and best evidence* of what it contained.
The policy in effect on 05-17-07 prohibited officers to initiate or
ccnlmufi a pursuit." [ij at 50;
(46) “In Order denying Petitioner’s Motion for New Trial, Trial Court
ruled that the chase videos were admissible; the question wasn’t
an admissibility issue per se, the error raised was that the
videotape of the chase was improperly played during the state's
Opening {Statements, The video, along with several others, wfas]
admitted later in capital trial.” [1] at 51;
(47) “After denial of Motion for New Trial, Petitioner discovered
evidence and presented it to the initial appellate counsel. A
conflict arose and Petitioner constructively questioned counsel's
performance, Counsel was substituted for lawyer/client
understanding prior to direct appeal Attorney failed to provide
Petitioner with transcripts, post conviction investigative reports,
or what issuefs] were being raised on appeal” [1] at 47;
(48) “The Georgia Supreme Court abused discretion by adopting and
applying ‘res gestaef]’ to continue the burglary until the
homicide, Res gestae[J’ was not instructed to the jury during
trial and is very distinguishable from the Felony Murder
predicatefd] on the Burglaiy charge to the Judges of the Law and
Facts.” [1] at 48;

17

Scanned with CamScanner

f

-vOjjJsrWT Document 99 fifed 0

19 Palawan

(49) “The Georgia Supreme Court abused discretion by quoting a case
law io confuse a layman *to adopt the argument that the burglary
was complete when defendant left I he building would eliminate
burglafyas an underlying ielnny
' Petitioner has adopted this
argument to the Georgia Supreme Court .“ f 1 j at 54 ;
(50) The Georgia Supreme C ourt neglected to projKtrly interpri-t (2)
state statutory laws by strategically omitting unambiguous
language, using ellipsis and quotations to distort [the]
legislatures intent and confuse a layman. Ibe Court has never
omitted language when applying either state statutory 1**0 In
any case prior to Petiticnicr'a.* (1) at ss;
(51) “The Georgia Supreme Court applied cases in which the factual
and essential elements of the crimes differentiated from the facts
of Petitioner s case* with distinguishable evidence respectfully,
file stave decisis/case law does not elf Jicit a police pursuit policy
violation or intervening cause defense. Unreasonablfy] applied
Federal Law according to the facts and evidence in the case.” [t]

(52) “The Court abased its discretion when it equivocally filled in
Division 1 that The policy alluded to was not presented to the
jury and is not contained on the record of appeal. Accordingly,
that material does not factor into our evidentiary review.*’ In
Division 3, the Court ruled “we found no reasonable probability
that such evidence... would've resulted in a favorable ruling.”
Mat 57i
(S3) “The Court abused discretion by ruling <in Footitote> ‘that
evidence at trial established that the pursuing vehicles did not
exceed the posted speed limit’ The Footnote was equivocally
used in a statute that stated the officers could disregard certain
specified rules of the road, hut th^^
must drive with due
regard for safety of all persons. ’The chase exceeded posted speed
limit Poli<yfJs not in statute. Speed of the chase was not elicited
as a proper law enforcement procedure on updated policy." [t]
at 58;
18

Scanned with CamScanner

■i:,### I yCw rl( In

iitl i iwi; CMi# ,

H# t .»y*t | 'i n> ) I

(M) *The Uv*Hgia .Ntipunn> ( unii uhiiml ilN <Iim tHimi l:»y holding
that trial n»»tti did in a ru wl»**n it lir»ili**il
»«
t«*
i'mni
H irgiudiiiK I In* jHilbv; Hit* < Ontl r*jn*»*«*d on
ifMNfffytive rtKMiNtiitit '* of ( uiin-id i kiiM I'ii hIkumIukiii^ bn*' »*(
questioning The Million in I .inline !il***i
jiHop i*< Inal
.liiloimtlinilfv pit»*ervi*d objivlinii for appeal" 11J «i $[)i
iSS) "The Gctugiit .Supreme ('mill *imiff?«i* *iii«i*t«r
im*r* b>(
)H»Miii|| |I«4II tHill <^»Mt9«t<tt
lie w»# liimllliir wlih ilw?
«nil was not ineffective lor failing to pro|»erl> investigate the
pursuit policy: amnsel testified that lie WMsaffcinptittg to obtain
the policy during trial; He also reveaW he newr read Hie policy
ami didn’t attempt to obtain it." 11] iiHiti.
(5b) "The Georgia Supreme Court made an unreasonable decision by
holding that trial counsel was not ineffective for failing to obtain
a copy Of the pursuit polity for defensive purpoM s; Petitioner
requested that policy. Co-defendant(*sj counsel had a copy of the
policy’ in his archives.
Counsel offered no evidence to
substantiate his trial strategy." |llat 61;
(57) “The Georgia Supreme Court made an unreasonable decision by
ascertaining that initial appellate counsel was not ineffective for

attaching ait incomplete policy to Petitioner’s Motion for New
Trial; the updated policy which was attached to appellate Brief
by Substitute damsel prohibited chases for burglary and dearly
statefd] Policy 5.17 was being modified to reflect a change." [t]
at 62;
(5S) "Trial Court and the Georgia Supreme Court unscrupulously
abused their discretion because through discretionary review,
they cannot prove beyond a reasonable doubt that had the
correct policy been properly presented by any attorney* that the
outcome of capital felony trial or Motion for New Trial would still
be in favor ofjury’s verdict on Felony Murder (Burglary)." [1] at
63;
19

Scanned with CamScanner

CaseJ :i4-v.,-ai;3l5,:rwT; Opcufwni 99 Cited OG/ZG/iv ayeionf 31

(5?) “After the Georgt;* Supreme Court decided that the policy
‘alluded* to was not presented at trial or on the record of appeal,
therefore it did not factor into their evidenl iary resiew, Petitioner
filed Extraordinary Motion for New Trial based on newly
discovered evidence; the Trial Court .ruled that Petitioner didn't
prove that evidence was newly discovered, and relied on the
Georgia Supreme Court's decision in Division J and 2 on
P^tioner** direct appeal** {i)at64;
(6o) "Petitioner was deprive! of the right to a hearing after P'
defensive pleading pursuant to state law. 1*hc state habeas court
failed to meet the requirements of O.C G.A. § tH4*47 * f87l M
«5;
(6j) "The state habeas court Jailed to meet the requirements of
O. C.G.A. §§ 9-14-48 and 9-14-49, when it adopted the proposed
final order verbatim which was arbitrary and capricious.* [87] at
IS;

(62) "SPOLIATION." f87J at 15.
Hating just quoted verbatim Westmoreland's numerous grounds for
relief; it is worth noting that he offered no other factual support for them in
his petition. This is significant because "pijabeas corpus petitions must meet
heightened pleading requirements.** McFarland u. Scott, 512 U.S. 849* 856
(1994) (citing 28 l/.S.C foil § 2254, Hule 2(c)). “The § 2254 Rules . ..
mandate ‘feet pleading* as opposed to ‘notice pleading," as authorized under
federal Rule of Ci vil Procedure 8(a). Coupled with the form petition..., the
federal rules give the petitioner... ample notice of this difference." Barden
v. Aden, 64b F.3<i 78$

(nth Cir. 201 i).
20

Scanned with CamScanner

!

Case 114-cv 01313 TWt Document S9 Piled 06/26/19 Paye 2\ of il

The reason for the heightened pleading requirement-fact
pleading-is obvious. Unlike a plaintiff pleading a case under
Rule 8(a), the habeas petitioner ordinarily possesses, of has
access to, the evidence necessary to establish the facts supporting
his collateral claim; he necessarily became aware of them during
the course of the criminal prosecution or sometime
afterward.... Whatever the claim,. the petitioner is, or should
be, await of the evidence to support the claim before bringing his
petition.
id. I have accordingly focused on those facts included in Westmoreland’s
petition, and not those he added for the first time in his 103-page Traverse,
see (92J, which he untimely filed, see LR 7.1(C), NDGa., only after Warden
Johnson had submitted his Second Amended Answer-Response and Brief,
re* f9l 8t 9**tJ. See Auvenshine v. Davis, No, 4:i7-CV-294~Y, 2018 WL
2064704, at *4 (N.D. Tex. May 3,2018) (“fN]ew legal theories and/or factual
issues raised for the first time in a reply brief need not be considered on
federal habeas review.*); Foster v.Sec’y, D0€t No. 2:12-CV-128-FTM-38CM,
2015 WL518807, at **5,7(M.D. Fla, Feb. 9,2015) (“Petitioner’s arguments
contained in the Reply were not presented in the Petition and therefore did
not provide Respondent the opportunity to respond. It is well established

that arguments raised for the first time in a reply are improper,... (T]he
Petition does not contain any additional facts or argument supporting
Ground Two. Instead, Petitioner raises additional facts and argument
21

Scanned with CamScanner

Case ! 14 ew 01315 TWT bbcumfthi.fW Filed 06/20/19 iJaye U ol 31

improperly in his Reply, which should not be considered." (oiling Herring i>.
Secretary^ Uep't of€arr.,/^7 F.ad 1338, 1342 (nth Cir.aoos))); see also
Untied States vt $ang$% 31 l*\ App'x 152, 2001 Wl. 1747884, at *» (5th Cir.
^c,ii* 2001) (affirming, in | 2255 prw^iinp, district court’s refusal to
consider issue raised for the first time in reply to government's answerresponse).
For Westmoreland’s benefit, I will summarize some other general
principles of federal habeas review that are particularly salient in this case.
"[A] writ of habeas corpus in behalf of a person in custody pursuant to
the judpaent of a Shale court" may be granted “only on the ground that he is
in custody in violation of the Constitution or laws or treaties of the United
States" 28 U.S.C. § 2254(a) (emphasis added). Consequently, claims that a
state trial, a state appellate court, or a state habeas court erred in applying
state law is beyond the scope of federal hi^beas teview. See, e g., Wilson u.
Cbrcvran, 562 U.S. i, 5 (2010) r[I]t is not the province of a federal habeas
court to reexamine state-court determinations of state-law questions ")
(quoting Estelle v. McGuire, 502US. 62,67 (Wf))A prisoner who wishes to seek federal habeas review must generally
first “exhaustl j the remediesavailablc in the courts of the State." 28 U.S.C.
22

Scanned with CamScanner

tJififf ti**.

H

MlJC4J,< 4#: an iiAlal jn®tia£, *
i ou»t

<*f

ttejrawner sawst

h»

'iw tadin* a slate <Kjj>T»rve 'o«m '*irh

, revww-^..:th*Mtjy :*ferfmg ehat-cwit tp.tbe feAsriJ

*

wv

i tm 2^2#C2O04j. Ami a

I#**-: III** male mmt» one full *tpportuntty to.rem^smrmy
we complete round of the St*t&
#>

■

O^iUiimn v. Boerckei. 526 L\S. 838.
"Ha petition*, 4tm no* satisfy the procedural requirements for
brimmmermrtethe

court's attentfon-whetherin trial, appellate, or

m mm law may mpiire-procedural default wffl bar
festal review. * Magwood
U. Patterson, $bi VS 320.340 (2010).
^ws*r where

a Pr^«’ has exhausted all available

federal habeas review ih subject to further statutory

constraints. Chief

kmmgfhese Is that a Mem1

court owes deference to a state court decision
°° ^ m*~nU of the prisoners federal constitutional dai
ims. Under federal

law,

£S‘."•*«■» wS.-:
23

Scanned with CamScanner

mm i i4 « w oi ii<i iwi

«*» mrni mmim Page m otji

til remitted ill u derision llnsl was contrary to, or: involved
an ttnreii^ciiiiiblc* 4ipi»1i<?n i it in of (leaiiy established lateral
law, og .determined l»y tin* Supreme Court. u( tin* United
Slates; or
(2) resulted in a decision that was based on an
unreasonable determination of the fads in light of the
evidence presented in the State court proceeding.
28 U.S.C | a254(d),
Notably, when 12254(d) applies In tandem with a Supreme Court ease
that itself requires a deferential standard of review, including* for example*
StHiAhincf w* mishiiiffton, 466 U,S. 668 (19S4), which governs ineffective
assistance of counsel claims, the state court’s decision on the prisoner’s
constitutional claim is subject to -doubly deferential judirial review" by the
federal habeas court. Khoudes u. Mirzayance, 556 U.S. lit* 123 (2009).
Moreover,in a § 2254 proceeding in federal court* “a determination of
a factual issue made by a State court shall be presumed to be correct*” unless
the prisoner rebuts that “presumption of correctness by dear and convincing
evidence.'' 28 U,S,C. § 2254(e),
“If this standard is difficult to meet, that isbecause it was meant to be."
Hmringim u, Richter, 562 U.S. 86,102 (2011). The federal habeas statute,
indudmg the provisions described above, serves as “a guard against extreme
malfunctions in the state criminal justice systems, not as a substitute for
24

Scanned with CamScanner

1
Case 114.cv-oi3l^TWt Document 99 f iled 06/2W9 Page m of 31

ordinary error correction through appeal." Id. at 102-03 (internal quotation
marks omitted). Thus* “[ajs a condition for obtaining habeas corpus from a
federal court, a state prisoner must show that the stale 'Court's ruling on the
claim being presented in federal court was so lacking in justification that
there was an error well understood and comprehended in existing law
beyond any possibility for fairmindcd disagreement. ” Id. at 103.
With that in mind, 1 turn to each of Westmoreland's grounds for relief.
Westmoreland s grounds 1,2 & 3 were considered and denied on the
merits by the state habeas court. See [45*6] at

Each is an ineffective

assistance of appelate counsel claim, where Westmoreland needed to
demonstrate deficient performance and prejudice. See Strickland, 466 at
passim. The state habeas court determined that Westmoreland offered no
evidence in support of these grounds during state habeas proceedings and
thus did not meet the Stridclmid standard. See 145-6] nt7~8. Because the
Strickland standard applies in conjunction with f a254(d), my review must
tie "doubly” deferential and "(t]he question is whether there is any
reasonable argument that counsel satisfied Strkklamrs deferential
£
standard.” Richter, 562 U.S, at 105, The state habeas court s decision easily
passes that threshold.

25

Scanned with CamScanner

Cftsei,14-c^0131S t WT Document !)y t iled Ufj/v'O/ jy PayeaO of 3t

Westmoreland’s ground.4 is not one he presented to the state courts,
so it is procedurnlly defaulted and thus no basts for federal habeas relief. See
Magtmod, 5biU.S.at:t4o.'
The slate habeas court determined that Westmoreland's ground 5 was
procedurally defaulted because he failed to raise it on direct appeal as
requited by state procedural rules. See (45-6] at 9*10. Consequently, the
state habeas court denied relief on this ground, In his federal filings,
Westmoreland has not demonstrated that the state habeas court erred in its
decision, or that “cause" and “prejudice" or a “fundamental miscarriage of
justice" entitle hint to overcome his procedural default. See Murray 1*.
Carrier, 477 US. 478* 488 (1986); Coleman 0. Thompson, 501 U.S. 722,750
(1991), See edso Mills v. United States, 36 F.3d 1052,1055 (11th Cir. 199ft)
(A fundamental miscarriage of justice occurs when “a constitutional
« At this stage, Westmoreland does not have the option of returning
to state court to exhaust this ciakn, because it would be deemed successive
under state habeas law. See O.C.G.A. § 9-14-51; Tucfer v. Kemp, 351 S.Ead
196 (Ga. 1987). And the United State* CourtofAppealsfor the Eleventh
Circuit has held that Georgia's bar on successive petitions “should be
enforced in federal habeas proceedings against claims never presented in
state court, unless there is some indication that a state court judge Would
find the claims in question ‘could not reasonably have been raised in the
original or amended (state habeas] petition.”’ Chambers v.-Thompson, 150
F.3d 1324,1327 (Uth Cir. 1998) (quoting O.C.G A. §9-14-51). There is no
such indication here, so the bar should be enforced.
26

Scanned with CamScanner

Case l:J4-cv-01315*TWT Document 99 ; tied OG^&’iy Page 2? of 3i

violation has probably resulted in the conviction of one who is actually
innocent,*).
Hie state habeas court similarly determined Westmoreland's grounds
6-22 to be procedurally defaulted. See (45-6J at y-2i, a*), 25 & 45-46. And,
again, Westmoreland has demonstrated no basis for overcoming his
procedural default.
The Georgia Supreme Court determined that Westmoreland s ground
23 was not preserved for appellate review, and thus procedurally defaulted.
Use Westmoreland, 699 S.E.2d at 18.

Again, Westmoreland has

demonstrated no basis for overcoming that procedural default.
The state habeas court determined that Westmoreland s ground 24
was procedurally defaulted, See [45-6] at 21-25. Westmoreland has
demonstrated no basis for overcoming that procedural default.
Hie Supreme Court denied Westmoreland's ground 25 on the merits.
See Westmoreland, 699 S,E,2d at 19. This was another ineffective assistance
of counsel claim, governed by Stricklands Again, “[tjhe question is whether
there is any reasonable argument that counsel satisfied Strickland's
deferential standard,* Richter, 562 U.S. at 105, The Georgia Supreme Court
concluded that Westmorelands trial counsel’s decision not to pursue a
27

Scanned with CamScanner

■y

Casei:i4-cv-oi3i5tWT Documental Filed06/26/19 Page28o!31

3»lame the police' defense was an “informed strategic decision" that did not,
in any event, prejudice Westmoreland. See Westmoreland, 699 S.E.ad at 19*
thus, the Georgia Supreme Court concluded that Westmoreland had
satisfied neither the performance, nor the prejudice prong of Siinddmdts
two-part standard for demonstrating ineffective assistance. Applying the
douhiy-deferential review described in .Richter,it is clear that Westmoreland
is not entitled to federal habeas relief on this ground.
Hie state habeas court denied Westmoreland’s grounds 26-47 as
procedurally defaulted.

See [45-6] at 19, 23-29 8t 39-40*

Again,

Westmoreland has not demonstrated any basis to overcome his own default.
Warden Johnson contends that Westmoreland’s grounds 48-57 “do
not state claims for relief; as they tfo not allege violations of constitutional
rights,” [91-1] at 23. Each of those grounds asserts that *lt]he Georgia
Supreme Court abused its discretion" in making a factual finding or applying
state caselawor statutes. See 111 at 48-62. To the extent these groimds assert
violations of state law, they a re no basis for federal habeas relief. See Wilson
y. Common, 562 U.S. at 5\ Estel(e v. McGuire, 502 U S, at 67. And to the
extent these "grounds" are Westmoreland’s attempt to overcome the
presumption of correctness that state court factual detennmatioiis are
28

Scanned with CamScanner

T*

&

Case I M cV 01315 TWT Document 09 tiled 0&26/19 Po«e 29 tif 31

entitled to on fwU'rathahmis revhnv, he has not proffered the "elear am!
convincing evidence" necessary to do so. a« USA’. f 22«54(e}ThestaUvhabeaseourt determined that Westmorelands grounds 58-

59

proeedurally defiiulied. See |45-t>l lit 32-34 &

Westmoreland

has not demonstrated any basis to overcome this finding of procedural
default.
Warden Johnson contends that Westmoreland’s grounds 60 and 61 do
not state claims upon which relief may be granted. See [9:1-1] at 26. Each of
these grounds purports to identify a defect in Westmoreland’s state habeas
proceedings- Even assuming that Westmoreland can raise these claims for
the first time in this Court without having first presented and exhausted
them In state proceedings, neither is a basis for federal habeas relief. See,
e.g., Quince

ik

Crosby, 360 F„3d 125% 1262 (11th Cir. 2004) Can alleged

defect in a collateral proceeding does not state a basis for [federal] habeas
relief).
Westmoreland stated his ground 62 in one, capitalized word:
-SPOUAnOhr [87] at 15. This was inadequate to state a basis for federal
habeas relief See McFarland, 512 ITS. at 856: Borden, 646 F.3d at 810.

29
Scanned with CamScanner

Oto# t M * v 0i3l‘i .1WT I/'k

‘-m hU i

»'in#r in »rf4iJ.

Iks niiae WcMttiintHaiiil Iuik stated ito gioiMid opon w}»i. |UH* U riililI*h1
to federal hafwas telief, I have teeoimticiiikd tliat Ills pviillori;
Arid he, hum- WeMniorrlnnil does not pi:?**! ^I;.ir^juImM«s '«iandi»Jid, I
Imw iw'iimim'tHii‘,1 that a
Slack

dented a»; WL; 8e$

Alc/*rmW< 529 1! J, ,|7:t, 484 faoooj (irijtnm^ a 1 :wo-|»rt::sf*ow»ng

(II that juristsof reason would find it debatable wlieiheHhe petit tonn\0m_
a valid claim of the denial of n constitutional right,* and (2) "that junsN of
mmm would find if deniable whether ihe diilrlct piurt was «)r« cl in Us
procedural ruling**)* see idmiSfmmr V. United Staten, ■773 *#1
(litJH jr 2014)(en banc) (holding that the Stock u. McMimV/ standard wiil
he flferfetty applied prospectively).
I DIRECT the Clerk to terminate the referral of this mm to me,
SO RECOMMENDED AND DIRECTED, thi*26thday of June,
2019.

i

>
.....

(ATHI KINEM W

mm

%

IWCD states MAciiJi i ra n* 11 jdgii

m
Scanned with CamScanner

■i

:V

7W
C«se l:14 €v m3iS TWT Document 99 f ifed 0612MB f'aye 31 of il

1

3J

Scanned with CamScanner

Case 1M4-CV 01315 TWT Document 100 Filed OU7&19 Page l of 2

IN THIi UNITED STAGESDISTRICT CpUin *
mR THIS NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORBLAND, JR.,
GDClDlCH***^
Petitioner,
v.

GLEN JOHNSON, Warden,
Respondent

;
:

HABEAS COBH'S
28 (J S tL J .22154

:

•

CIVIL ACTION NO.

:

i: 14-CV-1;} ig-lWr-CMS

•[

ORDER FOR SERVICE OF
REPORT AND RECOMMENDAXIOM QE
UNITED STATES MAGISTRATE JUDGE
Attached is the report and recommendation of the United States
Magistrate Judge in this action in accordance with 28 U.S.C § 636(b)(1) and
this Court’s Civil Local Rule 72. Let the same be filed and a copy, together
with a copy of this Order, be served upon counsel for the parties.
Pursuant to 28 U.S.C. § 636(b)(1), each party may file written
objections, if any, to foe report and recommendation within fourteen (14)
days of service of this Order. Should objections be filed, they shall specify
with particularity the alleged error or errors made (including reference by
page number to the transcript if applicable) and shall be served upon the
opposing party. The party filing objections will be responsible for obtaining
and filing the transcript of any evidentiary hearing for review bythe District

Scanned with CamScanner

Case 114-cv-S;ms nvr Zvcur^rt i;q c«eu Crisis1 ^ay* r :* T

,:Co«rL: If no objections are filed, the report and recommendation may be
** *b* opinion and order of the District Court and any appellate
reviewed factual findings and conclusions of law vnll be limited to a plain
«nw »tiew. See nth Or. It 3-1.
TbeOerkis DIHJECi tD to submit the report and recommendation
****** objections, if any, to the District Court after expiration of the above time
period.
SO ORDERED, this 26th day of June, 2019.

I

s

Alo^CL

CATHERINE M.
HAS
UNITED STATES MAGISTRATE JUDGE

Scanned with CamScanner

APPENDIX Er

Constitutional provisions, treaties, statutes, ordinances, and regulations involved in the case, (set
out verbatim with appropriate citation.) [Rule I4.1(i)]\

APPENDIX EConstitutional provisions, treaties, statutes, ordinances, and regulations involved in the
case, (set out verbatim with appropriate citation.)

Amendment 5 - Trial and Punishment, Compensation for Takings. Ratified 12/15/1791.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.

Amendment 6 - Right to Speedy Trial, Confrontation of Witnesses. Ratified 12/15/1791.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.

Amendment 14 - Citizenship Rights. Ratified 7/9/1868.
1. All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
2. Representatives shall be apportioned among the several States according to their respective numbers,
counting the whole number of persons in each State, excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for President and Vice-President of the United States,
Representatives in Congress, the Executive and Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male inhabitants of such State, being twenty-one years of age,
and citizens of the United States, or in any way abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be reduced in the proportion which the number of such
male citizens shall bear to the whole number of male citizens twenty-one years of age in such State.
3. No person shall be a Senator or Representative in Congress, or elector of President and Vice-President,
or hold any office, civil or military, under the United States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an officer of the United States, or as a member of any State
legislature, or as an executive or judicial officer of any State, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of two-thirds of each House, remove such disability.
4. The validity of the public debt of the United States, authorized by law, including debts incurred for
payment of pensions and bounties for services in suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the United States, or any claim for the loss or
emancipation of any slave; but all such debts, obligations and claims shall be held illegal and void.

5. The Congress shall have power to enforce, by appropriate legislation, the provisions of this article.

28 U.S.C. § 2254 State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an application
for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment of a State court only
on the ground that he is in custody in violation of the Constitution or laws or treaties of the United States.
(b)
(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)
(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the failure of
the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of the State,
within the meaning of this section, if he has the right under the law of the State to raise, by any available
procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
(e)
(1) In a proceeding instituted by an application for a writ of habeas corpus by a person in custody pursuant
to the judgment of a State court, a determination of a factual issue made by a State court shall be presumed
to be correct. The applicant shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim unless the applicant shows that—
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the exercise of due
diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing evidence that
but for constitutional error, no reasonable factfinder would have found the applicant guilty of the
underlying offense.

(f) If the applicant challenges the sufficiency of the evidence adduced in such State court proceeding to
support the State court’s determination of a factual issue made therein, the applicant, if able, shall produce
that part of the record pertinent to a determination of the sufficiency of the evidence to support such
determination. If the applicant, because of indigency or other reason is unable to produce such part of the
record, then the State shall produce such part of the record and the Federal court shall direct the State to do
so by order directed to an appropriate State official. If the State cannot provide such pertinent part of the
record, then the court shall determine under the existing facts and circumstances what weight shall be
given to the State court’s factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such court to be a true
and correct copy of a finding, judicial opinion, or other reliable written indicia showing such a factual
determination by the State court shall be admissible in the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substances Act, in all proceedings brought under
this section, and any subsequent proceedings on review, the court may appoint counsel for an applicant
who is or becomes financially unable to afford counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a proceeding arising under section 2254.

O.C.G.A. § 9-14-47. Time for answer and hearing:
Except as otherwise provided in Code Section 9-14-47.1 with respect to petitions challenging for the first
time state court proceedings resulting in a sentence of death, within 20 days after the filing and docketing
of a petition under this article or within such further time as the court may set, the respondent shall answer
or move to dismiss the petition. The court shall set the case for a hearing on the issues within a reasonable
time after the filing of defensive pleadings.

O.C.G.A. § 9-14-48. Hearing; evidence; depositions; affidavits; determination of compliance with
procedural rules; disposition
(a) The court may receive proof by depositions, oral testimony, sworn affidavits, or other evidence. No
other forms of discovery shall be allowed except upon leave of court and a showing of exceptional
circumstances.
(b) The taking of depositions or depositions upon written questions by either party shall be governed by
Code Sections 9-11-26 through 9-11-32 and 9-11-37; provided, however, that the time allowed in Code
Section 9-11-31 for service of cross-questions upon all other parties shall be ten days from the date the
notice and written questions are served.
(c) If sworn affidavits are intended by either party to be introduced into evidence, the party intending to
introduce such an affidavit shall cause it to be served upon the opposing party at least ten days in advance
of the date set for a hearing in the case. The affidavit so served shall include the address and telephone
number of the affiant, home or business, if known, to provide the opposing party a reasonable opportunity
to contact the affiant; failure to include this information in any affidavit shall render the affidavit
inadmissible. The affidavit shall also be accompanied by a notice of the party’s intention to introduce it
into evidence. The superior court judge considering the petition for writ of habeas corpus may resolve
disputed issues of fact upon the basis of sworn affidavits standing by themselves.
J
(d) The court shall review the trial record and transcript of proceedings and consider whether the petitioner
made timely motion or objection or otherwise complied with Georgia procedural rules at trial and on
appeal and whether, in the event the petitioner had new counsel subsequent to trial, the petitioner raised
any claim of ineffective assistance of trial counsel on appeal; and absent a showing of cause for
noncompliance with such requirement, and of actual prejudice, habeas corpus relief shall not be granted.

In all cases habeas corpus relief shall be granted to avoid a miscarriage of justice. If the court finds in
favor of the petitioner, it shall enter an appropriate order with respect to the judgment or sentence
challenged in the proceeding and such supplementary orders as to rearraignment, retrial, custody, or
discharge as may be necessary and proper.
(e) A petition, other than one challenging a conviction for which a death sentence has been imposed or
challenging a sentence of death, may be dismissed if there is a particularized showing that the respondent
has been prejudiced in its ability to respond to the petition by delay in its filing unless the petitioner shows
by a preponderance of the evidence that it is based on grounds of which he or she could not have had
knowledge by the exercise of reasonable diligence before the circumstances prejudicial to the respondent
occurred. This subsection shall apply only to convictions had before July 1,2004.

O.C.G.A § 9-14-49. Findings of Fact and Conclusions of Law
After reviewing the pleadings and evidence offered at the trial of the case, the judge of the superior court
hearing the case shall make written findings of fact and conclusions of law upon which the judgment is
based. The findings of fact and conclusions of law shall be recorded as part of the record of the case.

O.C.G.A. § 16-5-1 Murder; Felony Murder
(a) A person commits the offense of murder when he unlawfully and with malice aforethought, either
express or implied, causes the death of another human being.
(b) Express malice is that deliberate intention unlawfully to take the life of another human being which is
manifested by external circumstances capable of proof. Malice shall be implied where no considerable
provocation appears and where all the circumstances of the killing show an abandoned and malignant
heart.
(c) A person commits the offense of murder when, in the commission of a felony, he or she causes the
death of another human being irrespective of malice.
(d) A person commits the offense of murder in the second degree when, in the commission of cruelty to
children in the second degree, he or she causes the death of another human being irrespective of malice.
(e)(1) A person convicted of the offense of murder shall be punished by death, by imprisonment for life
without parole, or by imprisonment for life.
(2) A person convicted of the offense of murder in the second degree shall be punished by imprisonment
for not less than ten nor more than 30 years.

O.C.G.A. § 16-7-1 Burglary
(a) A person commits the offense of burglary when, without authority and with the intent to commit a
felony or theft therein, he enters or remains within the dwelling house of another or any building, vehicle,
railroad car, watercraft, or other such structure designed for use as the dwelling of another or enters or
remains within any other building, railroad car, aircraft, or any room or any part thereof. A person
convicted of the offense of burglary, for the first such offense, shall be punished by imprisonment for not
less than one nor more than 20 years. For the purposes of this Code section, the term "railroad car" shall
also include trailers on flatcars, containers on flatcars, trailers on railroad property, or containers on
railroad property.
(b) Upon a second conviction for a crime of burglary occurring after the first conviction, a person shall be
punished by imprisonment for not less than two nor more than 20 years. Upon a third conviction for the

crime of burglary occurring after the first conviction, a person shall be punished by imprisonment for not
less than five nor more than 20 years. Adjudication of guilt or imposition of sentence shall not be
suspended, probated, deferred, or withheld for any offense punishable under this subsection.

O.C.G.A. § 40-6-6. Authorized emergency vehicles
(a) The driver of an authorized emergency vehicle or law enforcement vehicle, when responding to an
emergency call, when in the pursuit of an actual or suspected violator of the law, or when responding to
but not upon returning from a fire alarm, may exercise the privileges set forth in this Code section.
(b) The driver of an authorized emergency vehicle or law enforcement vehicle may:
(1) Park or stand, irrespective of the provisions of this chapter;
(2) Proceed past a red or stop signal or stop sign, but only after slowing down as may be necessary for safe
operation;
(3) Exceed the maximum speed limits so long as he or she does not endanger life or property; and
(4) Disregard regulations governing direction of movement or turning in specified directions.
(c) The exceptions granted by this Code section to an authorized emergency vehicle shall apply only when
such vehicle is making use of an audible signal and use of a flashing or revolving red light visible under
normal atmospheric conditions from a distance of 500 feet to the front of such vehicle, except that a
vehicle belonging to a federal, state, or local law enforcement agency and operated as such shall be
making use of an audible signal and a flashing or revolving blue light with the same visibility to the front
of the vehicle.
(d)(1) The foregoing provisions shall not relieve the driver of an authorized emergency vehicle from the
duty to drive with due regard for the safety of all persons.
(2) When a law enforcement officer in a law enforcement vehicle is pursuing a fleeing suspect in another
vehicle and the fleeing suspect damages any property or injures or kills any person during the pursuit, the
law enforcement officer's pursuit shall not be the proximate cause or a contributing proximate cause of the
damage, injury, or death caused by the fleeing suspect unless the law enforcement officer acted with
reckless disregard for proper law enforcement procedures in the officer's decision to initiate or continue
the pursuit. Where such reckless disregard exists, the pursuit may be found to constitute a proximate cause
of the damage, injury, or death caused by the fleeing suspect, but the existence of such reckless disregard
shall not in and of itself establish causation.
(3) The provisions of this subsection shall apply only to issues of causation and duty and shall not affect
the existence or absence of immunity which shall be determined as otherwise provided by law.
(4) Claims arising out of this subsection which are brought against local government entities, their
officers, agents, servants, attorneys, and employees shall be subject to the procedures and limitations
contained in Chapter 92 of Title 36.
(e) It shall be unlawful for any person to operate an authorized emergency vehicle with flashing lights
other than as authorized by subsection (c) of this Code section.

O.C.G.A. § 40-6-390 - Reckless driving
(a) Any person who drives any vehicle in reckless disregard for the safety of persons or property commits
the offense of reckless driving.
(b) Every person convicted of reckless driving shall be guilty of a misdemeanor and, upon conviction
thereof, shall be punished by a fine not to exceed $ 1,000.00 or imprisonment not to exceed 12 months, or
by both such fine and imprisonment, provided that no provision of this Code section shall be construed so

as to deprive the court imposing the sentence of the power given by law to stay or suspend the execution
of such sentence or to place the defendant on probation.

O.C.G.A. § 40-6-393. Homicide by vehicle:
(a) Any person who, without malice aforethought, causes the death of another person through the violation
of subsection (a) of Code Section 40-6-163, Code Section 40-6-390 or 40-6-391, or subsection (a) of Code
Section 40-6-395 commits the offense of homicide by vehicle in the first degree and, upon conviction
thereof, shall be punished by imprisonment for not less than three years nor more than 15 years.
(b) Any driver of a motor vehicle who, without malice aforethought, causes an accident which causes the
death of another person and leaves the scene of the accident in violation of subsection (b) of Code Section
40-6-270 commits the offense of homicide by vehicle in the first degree and, upon conviction thereof,
shall be punished by imprisonment for not less than three years nor more than 15 years.
(c) Any person who causes the death of another person, without an intention to do so, by violating any
provision of this title other than subsection (a) of Code Section 40-6-163, subsection (b) of Code Section
40-6-270, Code Section 40-6-390 or 40-6-391, or subsection (a) of Code Section 40-6-395 commits the
offense of homicide by vehicle in the second degree when such violation is the cause of said death and,
upon conviction thereof, shall be punished as provided in Code Section 17-10-3.
(d) Any person who, after being declared a habitual violator as determined under Code Section 40-5-58
and while such person's license is in revocation, causes the death of another person, without malice
aforethought, by operation of a motor vehicle, commits the offense of homicide by vehicle in the first
degree and, upon conviction thereof, shall be punished by imprisonment for not less than five years nor
more than 20 years, and adjudication of guilt or imposition of such sentence for a person so convicted may
be suspended, probated, deferred, or withheld but only after such person shall have served at least one year
in the penitentiary.

40-6-395. Fleeing or attempting to elude police officer; impersonating law enforcement officer
(a) It shall be unlawful for any driver of a vehicle willfully to fail or refuse to bring his or her vehicle to a
stop or otherwise to flee or attempt to elude a pursuing police vehicle or police officer when given a visual
or an audible signal to bring the vehicle to a stop. The signal given by the police officer may be by hand,
voice, emergency light, or siren. The officer giving such signal shall be in uniform prominently displaying
his or her badge of office, and his or her vehicle shall be appropriately marked showing it to be an official
police vehicle.
(b)(1) Any person violating the provisions of subsection (a) of this Code section shall be guilty of a high
and aggravated misdemeanor and:
(A) Upon conviction shall be fined not less than $500.00 nor more than $5,000.00, which fine
shall not be subject to suspension, stay, or probation and imprisoned for not less than ten days nor
more than 12 months. Any period of such imprisonment in excess of ten days may, in the sole
discretion of the judge, be suspended, stayed, or probated;
(B) Upon the second conviction within a ten-year period of time, as measured from the dates of
previous arrests for which convictions were obtained to the date of the current arrest for which a
conviction is obtained, shall be fined not less than $ 1,000.00 nor more than $5,000.00, which fine
shall not be subject to suspension, stay, or probation and imprisoned for not less than 30 days nor
more than 12 months. Any period of such imprisonment in excess of 30 days may, in the sole
discretion of the judge, be suspended, stayed, or probated; and for purposes of this paragraph,
previous pleas of nolo contendere accepted within such ten-year period shall constitute
convictions; and

(C) Upon the third or subsequent conviction within a ten-year period of time, as measured from
the dates of previous arrests for which convictions were obtained to the date of the current arrest
for which a conviction is obtained, shall be fined not less than $2,500.00 nor more than $5,000.00,
which fine shall not be subject to suspension, stay, or probation and imprisoned for not less than
90 days nor more than 12 months. Any period of such imprisonment in excess of 90 days may, in
the sole discretion of the judge, be suspended, stayed, or probated; and for purposes of this
paragraph, previous pleas of nolo contendere accepted within such ten-year period shall constitute
convictions.
(2) For the purpose of imposing a sentence under this subsection, a plea of nolo contendere shall
constitute a conviction.
(3) If the payment of the fine required under paragraph (1) of this subsection will impose an economic
hardship on the defendant, the judge, at his or her sole discretion, may order the defendant to pay such fine
in installments and such order may be enforced through a contempt proceeding or a revocation of any
probation otherwise authorized by this subsection.
(4) Notwithstanding the limits set forth in any municipal charter, any municipal court of any
municipality shall be authorized to impose the punishments provided for in this subsection upon a
conviction of violating this subsection or upon conviction of violating any ordinance adopting the
provisions of this subsection.
(5)(A) Any person violating the provisions of subsection (a) of this Code section who, while fleeing or
attempting to elude a pursuing police vehicle or police officer in an attempt to escape arrest for any
offense other than a violation of this chapter, operates his or her vehicle in excess of 30 miles an hour
above the posted speed limit, strikes or collides with another vehicle or a pedestrian, flees in traffic
conditions which place the general public at risk of receiving serious injuries, or leaves the state shall be
guilty of a felony punishable by a fine of $5,000.00 or imprisonment for not less than one year nor more
than five years or both.
(B) Following adjudication of guilt or imposition of sentence for a violation of subparagraph (A)
of this paragraph, the sentence shall not be suspended, probated, deferred, or withheld, and the
charge shall not be reduced to a lesser offense, merged with any other offense, or served
concurrently with any other offense.
(c) It shall be unlawful for a person:
(1) To impersonate a sheriff, deputy sheriff, state trooper, agent of the Georgia Bureau of
Investigation, agent of the Federal Bureau of Investigation, police officer, or any other authorized
law enforcement officer by using a motor vehicle or motorcycle designed, equipped, or marked so
as to resemble a motor vehicle or motorcycle belonging to any federal, state, or local law
enforcement agency; or
(2) Otherwise to impersonate any such law enforcement officer in order to direct, stop, or
otherwise control traffic.

Rule 1.7 of the Georgia Rules of Professional Conduct
(a) A lawyer shall not represent or continue to represent a client if there is a significant risk that the
lawyer's own interests or the lawyer's duties to another client, a former client, or a third person will
materially and adversely affect the representation of the client, except as permitted in (b).
(b) If client informed consent is permissible a lawyer may represent a client notwithstanding a significant
risk of material and adverse effect if each affected client or former client gives informed consent
confirmed in writing to the representation after:
(1) consultation with the lawyer pursuant to Rule 1.0(c);
(2) having received in writing reasonable and adequate information about the material risks of and
reasonable available alternatives to the representation; and

(3) having been given the opportunity to consult with independent counsel.
(c) Client informed consent is not permissible if the representation:
(1) is prohibited by law or these Rules;
(2) includes the assertion of a claim by one client against another client represented by the lawyer
in the same or a substantially related proceeding; or
(3) involves circumstances rendering it reasonably unlikely that the lawyer will be able to provide
adequate representation to one or more of the affected clients.

Rule 1.10 of the Georgia Rules of Professional Conduct
(a) While lawyers are associated in a firm, none of them shall knowingly represent a client when any one
of them practicing alone would be prohibited from doing so by Rules 1.7: Conflict of Interest: General
Rule, 1.8(c): Conflict of Interest: Prohibited Transactions, 1.9: Former Client or 2.2: Intermediary.
(b) When a lawyer has terminated an association with a firm, the firm is not prohibited from thereafter
representing a person with interests materially adverse to those of a client represented by the formerly
associated lawyer unless:
(1) the matter is the same or substantially related to that in which the formerly associated lawyer
represented the client; and
(2) any lawyer remaining in the firm has information protected by Rules 1.6: Confidentiality of
Information and 1 9(c): Conflict of Interest: Former Client that is material to the matter.
(c) A disqualification prescribed by this rule may be waived by the affected client under the conditions
stated in Rule 1.7: Conflict of Interest: General Rule.

Rule 1.16 of the Georgia Rules of Professional Conduct provides:
(a) Except as stated in paragraph (c), a lawyer shall not represent a client or, where representation has
commenced, shall withdraw from the representation of a client if:
(1) the representation will result in violation of the Georgia Rules of Professional Conduct or
other law;
(2) the lawyer’s physical or mental condition materially impairs the lawyer’s ability to represent
the client; or
(3) the lawyer is discharged.
(b) except as stated in paragraph (c), a lawyer may withdraw from representing a client if withdrawal can
be accomplished without material adverse effect on the interests of the client, or if:
(1) the client persists in a course of action involving the lawyer’s services that the lawyer
reasonably believes is criminal or fraudulent;
(2) the client has used the lawyer’s services to perpetrate a crime or fraud;
(3) the client insists upon pursuing an objective that the lawyer considers repugnant or imprudent;
(4) the client fails substantially to fulfill an obligation to the lawyer regarding the lawyer’s
services and has been given reasonable warning that the lawyer will withdraw unless the
obligation is fulfilled;

(5) the representation will result in an unreasonable financial burden on the lawyer or has been
rendered unreasonably difficult by the client; or
(6) other good cause for withdrawal exists.
(c) When a lawyer withdraws it shall be done in compliance with applicable laws and rules. When
ordered to do so by a tribunal, a lawyer shall continue representation notwithstanding good cause for
terminating the representation.
(d) Upon termination of representation, a lawyer shall take steps to the extent reasonably practicable to
protect a client’s interests, such as giving reasonable notice to the client, allowing time for employment of
other counsel, surrendering papers and property to which the client is entitled and refunding any advance
payment of fee that has not been earned.

Uniform Superior Court Rule 4.3. Withdrawal
(1) An attorney appearing of record in any matter pending in any superior court, who wishes to withdraw
as counsel for any party, shall submit a written request to an appropriate judge of the court for an order
permitting such withdrawal. The request shall state that the attorney has given written notice to the
affected client setting forth the attorney's intent to withdraw, that 10 days have expired since notice, and
there has been no objection, or that withdrawal is with the client's consent. The request will be granted
unless in the judge's discretion to do so would delay the trial or otherwise interrupt the orderly operation
of the court or be manifestly unfair to the client.
(2) The attorney requesting an order permitting withdrawal shall give notice to opposing counsel and
shall file with the clerk and serve upon the client, personally or at that client's last known mailing and
electronic addresses, the notice which shall contain at least the following information:
(A) the attorney wishes to withdraw;
(B) the court retains jurisdiction of the action;
(C) the client has the burden of keeping the court informed where notices, pleadings or other
papers may be served;
(D) the client has the obligation to prepare for trial or hire new counsel to prepare for trial, when
the trial date has been scheduled and to conduct and respond to discovery or motions in the case;
(E) if the client fails or refuses to meet these burdens, the client may suffer adverse consequences,
including, in criminal cases, bond forfeiture and arrest;
(F) dates of any scheduled proceedings, including trial, and that holding of such proceedings will
not be affected by the withdrawal of counsel;
(G) service of notices may be made upon the client at the client's last known mailing address;
(H) if the client is a corporation, that a corporation may only be represented in court by an
attorney, that an attorney must sign all pleadings submitted to the court, and that a corporate
officer may not represent the corporation in court unless that officer is also an attorney licensed to
practice law in the state of Georgia or is otherwise allowed by law; and
(I) unless the withdrawal is with the client's consent, the client's right to object within 10 days of
the date of the notice, and provide with specificity when the 10th day will occur.
The attorney requesting to withdraw shall prepare a written notification certificate stating that the
notification requirements have been met, the manner by which notification was given to the client and the
client's last known mailing and electronic addresses and telephone number. The notification certificate
shall be filed with the court and a copy mailed to the client and all other parties. Additionally, the attorney
seeking withdrawal shall provide a copy to the client by the most expedient means available due to the
strict 10-day time restraint, i.e., e-mail, hand delivery, or overnight mail. After the entry of an order
permitting withdrawal, the client shall be notified by the withdrawing attorney of the effective date of the

withdrawal; thereafter all notices or other papers shall be served on the party directly by mail at the last
known mailing address of the party until new counsel enters an appearance.
(3) When an attorney has already filed an entry of appearance and the client wishes to substitute counsel,
it will not be necessary for the former attorney to comply with rule 4.3 (1) and (2). Instead, the new
attorney may file with the clerk of court a notice of substitution of counsel signed by the party and the
new attorney. The notice shall contain the style of the case and the name, address, phone number and bar
number of the substitute attorney. The new attorney shall serve a copy of the notice on the former
attorney, opposing counsel or party if unrepresented, and the assigned judge. No other or further action
shall be required by the former attorney to withdraw from representing the party. The substitution shall
not delay any proceeding or hearing in the case.

APPENDTXF-

Eleventh Circuit Court of Appeals, Westmoreland v. Warden et.el., 817 F.3d 751 (11 th Cir.
2016). Judgement entered March 30, 2016.

9/3/2020

WESTMORELAND v. WARDEN | Fi

United States Court of Appeals, Eleventh Circuit.
Amos WESTMORELAND, Petitioner-Appellant, v. WARDEN, Commissioner, Georgia
Department of Corrections, Respondents-Appellees.
No.14-15738
Decided: March 30, 2016
Before TJOFLAT, MARTIN, and JILL PRYOR, Circuit Judges. Amos Westmoreland, Leesburg, GA,
pro se. Matthew Crowder, Paula Khristian Smith, Samuel Scott Olens, Andrew George Sims,
Attorney General's Office, Atlanta, GA, for Respondents-Appellees.
Amos Westmoreland appeals the dismissal of his pro se federal habeas petition. The District Court
held that the petition was untimely based on the limitations period in 28 U.S.C. § 2244(d)(1). Mr.
Westmoreland told the court that his limitations period was tolled (which is to say paused) by the
pendency of an extraordinary motion for new trial he filed in Georgia state court. He also
repeatedly asked the state to turn over a copy of this motion. Each time Mr. Westmoreland asked,
the state insisted that it had given the District Court all the records the court needed. The court
decided the issue without seeing Mr. Westmoreland's state-court motion. This Court then granted a
certificate of appealability (COA) on these issues:
(1) Whether the proper filing of a Georgia extraordinary motion for new trial tolls the time period for
filing a 28 U.S.C. § 2254 petition, see 28 U.S.C. § 2244(d)(2); and if so, whether Westmoreland's
Georgia extraordinary motion for new trial was properly filed; and
(2) If a Georgia extraordinary motion for new trial is a tolling motion under 28 U.S.C. § 2244(d)(2),
and Westmoreland properly filed his extraordinary motion, whether the district court erred by
dismissing his 28 U.S.C. § 2254 petition as time-barred.
After our Court granted this COA, the state acknowledged that it had been wrong all along. The
state now agrees that Mr. Westmoreland's petition is timely. We agree too. We thus reverse and
remand.1

We review de novo a district court's dismissal of a habeas petition as untimely. Day v. Hall, 528
F.3d 1315, 1316 (11th Cir.2008) (per curiam). Federal habeas petitions that challenge state-court
judgments must be filed within a year of “the latest of one of four triggering dates, including “the
date on which the judgment became final.” 28 U.S.C. § 2244(d)(1)(A). This one-year limitations
period is tolled while “a properly filed application for State post-conviction or other collateral review
https://caselaw.findlaw.com/us-11 th-circuit/1730784.html

1/4

9/3/2020

with respect to the pertinen,

WESTMORELAND v. WARDEN | FindLaw

jment or claim is pending.” Id. § 2

d)(2). An application is

considered “for” collateral review if it seeks “a judicial reexamination of a judgment or claim in a
proceeding outside of the direct review process.” Wall v. Kholi, 562 U.S. 545, 553, 131 S.Ct. 1278,
1285, 179 L.Ed.2d 252 (2011). And an application is considered “properly filed” if “its delivery and
acceptance are in compliance with the applicable laws and rules governing filings.” Artuz v.
Bennett, 531 U.S. 4, 8, 121 S.Ct. 361, 364, 148 L.Ed.2d 213 (2000). Also, if a properly filed state
application is denied, then the time for appealing this denial tolls the federal filing deadline. See
Cramer v. Sec'y, Dep't of Corr., 461 F.3d 1380, 1383 (11th Cir.2006) (per curiam). This is true
“regardless of whether the inmate actually files the notice of appeal.” Id. So long as the applicant
was allowed to appeal, the limitations period is tolled “until the time to seek review expires.” Id.
In Georgia, a motion for new trial filed more than 30 days after a judgment is entered is called an
“extraordinary” motion for new trial. O.C.G.A. § 5-5-41 (b). This Court has never decided whether a
Georgia extraordinary motion for new trial is an application for collateral review, though we have
said such a motion is “in the nature of a collateral proceeding.” Mize v. Hall, 532 F.3d 1184, 1191 n.
5 (11th Cir.2008). And the Georgia Supreme Court has explained that an extraordinary motion for
new trial is one of three ways to “challenge a conviction after it has been affirmed on direct appeal.”
Thomas v. State, 291 Ga. 18, 727 S.E.2d 123, 123 (Ga.2012). (The other two are “a motion in
arrest of judgment” and “a petition for habeas corpus.” Id.) We thus hold that a Georgia
extraordinary motion for new trial can be an “application for State post-conviction or other collateral
review.” 28 U.S.C. § 2244(d)(2).
II.
Mr. Westmoreland's § 2254 petition is timely. Mr. Westmoreland's conviction became final on
October 25, 2010. He thus had until October 25, 2011, to file his federal petition. Mr. Westmoreland
properly filed an extraordinary motion for new trial in the Georgia trial court on May 2, 2011. This
was a motion for collateral review, so while it was pending the one-year clock froze at 189 days
(the number of days between October 25, 2010 and May 2, 2011). The state trial court denied the
motion on the merits on June 9, 2011. Mr. Westmoreland had 30 days to appeal this denial. See
O.C.G.A. § 5-6-35(d). This means the clock did not start again until at least July 9, 2011. Mr.
Westmoreland then properly filed his state habeas petition on October 28, 2011. This was 111 days
after July 9. 189 plus 111 is 300, so his filing was within § 2244(d)'s one-year period and further
tolled this period. Mr. Westmoreland then filed his federal petition on May 1,2014, before his state
petition was denied on June 27, 2014. This means he was still within his one-year time for filing
when he filed his federal petition.
The District Court dismissed Mr. Westmoreland's petition without properly considering the effect of
the extraordinary motion for new trial. The state bears much responsibility for this mistake. Shortly
after Mr. Westmoreland filed his federal petition, the District Court ordered the state to file all
https://caselaw.findlaw.com/us-11th-circuit/1730784.html

2/4

9/3/2020

WESTMORELAND v. WARDEN | Fir

“pleadings, transcripts and incisions as are available and requireu lO determine the issues raised.”
The state responded by moving to dismiss the petition as untimely. Mr. Westmoreland then asked
the court to order the state to make his extraordinary motion for new trial a part of the district court
record. The state objected, claiming it had “already filed all relevant exhibits that are germane to
resolving the issue of the timeliness of this petition.” Mr. Westmoreland then filed a 28 U.S.C. §
2250 request for a copy of the same motion. The state again objected, repeating that it had
“already filed all relevant exhibits that are germane to resolving the issue of the timeliness of this
petition.”
In this Court, the state reports that it “has examined the trial court's public record in Petitioner's
criminal case and does not dispute Petitioner's contentions.” The state thus concedes that “the
petition was timely filed” because the “one-year period should have been tolled while the
extraordinary motion for new trial was pending in the Georgia courts.” If the state had made this
concession back in 2014, when Mr. Westmoreland repeatedly pointed the state's attention to his
state-court motion, then the District Court would have had the means to decide the timeliness issue
correctly the first time around. Instead, the state repeatedly told the District Court that it had given
the court everything “germane to resolving” the timeliness issue, the District Court relied on this
representation, Mr. Westmoreland was delayed two more years in prison, and this Court had to
issue an apparently unnecessary COA and decide an unnecessary appeal.
III.
Even with its admission that Mr. Westmoreland's federal petition is timely, the state says we should
affirm the District Court anyway because Mr. Westmoreland failed to exhaust state remedies. The
COA did not cover the exhaustion issue. To the contrary, the COA order expressly stated that,
“should this Court ultimately conclude that [Mr. Westmoreland's] § 2254 petition was timely filed,
the district court will determine any issues of exhaustion, procedural default, and cause and
prejudice in the first instance.” We thus decline the state's invitation to consider the exhaustion
issue now. When considering the exhaustion issue on remand, the District Court must determine
whether cause and prejudice excuse any possible failure to exhaust. If not, then the court must
determine if a stay and abeyance is proper while Mr. Westmoreland exhausts state remedies. See
Rhines v. Weber, 544 U.S. 269, 277-78, 125 S.Ct. 1528, 1535, 161 L.Ed.2d 440 (2005).
REVERSED AND REMANDED.
FOOTNOTES
1. The state also filed a motion asking this Court to expand the appellate record to include Mr.
Westmoreland's extraordinary motion for new trial and the order denying that motion, plus
documents that purported to show Mr. Westmoreland's failure to exhaust state remedies. We grant
the motion as to the extraordinary motion for new trial (Exhibit 5) as well as the order denying the
https://caselaw.findiaw.com/us-11 th-circuit/1730784.html

3/4

9/3/2020

WESTMORELAND v. WARDEN | Fir

motion (Exhibit 6). We deny n as to all the other exhibits because, as explained in part III, we are
not addressing exhaustion at this time.Mr. Westmoreland also filed a pro se motion for leave to file
a reply brief out of time. We grant this motion.
MARTIN, Circuit Judge:

https://caselaw.findlaw.com/us-11th-circuit/1730784.html

4/4

A PPENDJX G-

Northern District of Georgia, Westmoreland v. Grubbs et.el.. No. 2012 U.S. Dist. LEXIS
118733 (N.D. Ga. 2012). Judgement entered July 23, 2012.

Case 1:12

12080-TWT Document 4 Filed 0

112 Page lot 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND,
GDC No, 104162:9,
Plaintiff,

PRISONER CIVIL RIGHTS
42 U.S.C. § 1983

v.

CIVIL ACTION NO.
1:12-CV~ 2 0 8 0-TWT-ECS

ADELE GRUBBS et al.,
Defendants.
FINAL REPORT AND REGMSiSiatftwllATION AND ORDER

Proceeding pro se. state prisoner Amos Westmoreland filed a
civil rights complaint under 42 U.S.C. § 1983 against his public
defenders, several police officers, a trial judge, and seven members
of the Georgia Supreme Court.

[Doc. No. 1],

Because most of his

claims are time-barred and the remainder seek relief from defendants
who are immune from suit under § 1983, Mr. Westmoreland's complaint
should be dismissed.

See 28 U.S.C. § 1915A.

For purposes of this Final Report and Recommendation,
undersigned accepts as true Mr.

Westmoreland's

the

history of his

criminal trial and direct appeal in Georgia state court:
The crimes were committed allegedly on May 17,
2007. On November 30, 2007, Movant was charged in a
multi-count indictment. After makeshift arraignment
on January 10, 2008, Movant was appointed several
public defenders until trial commenced on October 20,
2008. On October 23, 2008, Movant was found guilty of
(2 counts) of Burglary, (2) counts of fleeing and
attempting to elude a pursuing officer, (2) counts of
felony murder (predicated on burglary and attempting
to elude), obstruction, operating a vehicle w/o a
secure load, reckless driving, homicide by motor

AOT2A

7

Case l:12-c\

)80-TWT Document 4 Filed 07/:

>

Page 2 of 7

vehicle (predicated on reckless driving), and serious
injury by motor vehicle (predicated on reckless
driving.
Movant recieved a sentence of life
imprisonment for felony murder while in the commission
of a burglary* and 15 years consecutive for serious
injury by motor vehicle, plus 12 months concurrent for
the misdemeanor counts.
Movant appealed from the
denial of Motion for New Trial {3-12-09}. On direct
appeal to the Georgia Supreme Court, the Court made
its decision on June 28, 2010 and affirmed the lower
court's decision, ail Justices concurred.
[Id, at 21 (spelling and punctuation as in original)].
Mr.

Westmoreland complains

(sometimes
officers)

acting

alone

violated

his

and

that

(1)

sometimes

rights

because

in

his public defenders
concert

they

had

with

police

conflicts

of

interest, did not aggressively enough seek or use a copy of a police
pursuit policy,

ignored evidence he wanted presented,

generally ineffective

and were

at 1-7, 12-14, 22-23, 25-26]; (2) a state

court trial judge ignored conflicts of interest, failed to protect
his rights, made errors of law, and showed prejudice fid, at 8-11,
22]; and (3) seven members of the Georgia Supreme Court, "showing
total disregard for Due Process and Constitutional Rights," issued
an "equivocated decision" fid» at 15-20, 24-25].

Mr. Westmoreland

is seeking hundreds of millions of dollars in damages.

See fid, at

2.7] .
A two-year statute of limitations applies to § 1983 actions in
Georgia.

See Crowe v. Donald. 529 F.3d 1290, 1292 (11th. Cir. 2008).

Therefore, all claims that arose more that two years before Mr.

2

/
A0 72A

(I!..v
■!;k

i

Case l:12-c

380-TWT Document 4 Filed 07/

2 Page 3 of 7

Westmoreland filed this suit on June 13, 2012, see [Doc. .No, 1-1 at
1], are now time-barred,

That includes all of the claims he seeks

to bring against the defendants except for the claims against the
Georgia Supreme Court justices.
Although Mr . Westiaorelandr s claims against the members of the
Georgia Supreme Court arising out of their June 28, 2010, decision
fall just within the two-year limitations period, those claims must
also be dismissed.

"[IJt is a general principle of the highest

importance to the proper administration of justice that a judicial
officer, in exercising the authority vested in him, shall be free
to act upon his own convictions, without apprehension of personal
consequences to himself."
335, 347 (1872).

Bradley v. Fisher. 80 U.S. 335, 13 Wail.

Thus, a judge is entitled to absolute judicial

immunity from damages arising from acts taken in his judicial
capacity, unless he acts in the clear absence of all jurisdiction.
Sibley..v,Lando,

437 F,3d 1067,

1070

(11th Cir.

2005).

" [Tjhe

nature of the act itself, 1,e.. whether it is a function normally
performed by a judge, and , .
1

. the expectations of the parties,

* "whether they dealt with the judge in his judicial capacity,"

determine whether an act was within a judge's judicial capacity.
Stump..v...Sparkman, 435 U.S. 349, 362 (1978); see also Mireles v.
Waco. 502 U.S. 9, 12 (1991).

And a judge acts in the clear absence

of jurisdiction only where he is entirely without subject matter

3

AO 72A
'i.

Case l:12-c

080-TWT Document 4 Filed Oh

2 Page 4 of 7

jurisdiction, not merely because he may have acted in a manner that
was erroneous, malicious,

or in excess of authority.

Hosemann, 776 F.2d 942, 947-48 (11th Cir. 1985} (en banc) .
Pierson

y.

Ray, 386 XJ.S. 547, 554 (1967)

See also

("Immunity applies even

when the judge is accused of acting maliciously and corruptly."}
It

is

beyond question

that

the decision

rendered

in Mr.

Westmoreland's direct appeal by the Georgia Supreme Court was within
that court's subject matter jurisdiction and that it was a normal
judicial

act.

The

Georgia

Supreme

Court

justices

that

Mr.

Westmoreland named as defendants in this case are therefore entitled
to judicial immunity from suit under § 1983 for that decision.
For .the foregoing reasons, the undersigned RECOM4ENDS that Mr.
Westmoreland's complaint be DISMISSED.

See 28 U.S.C. § 1915A.

The undersigned GRANTS Mr. Westmoreland' request for permission
to proceed in forma pauperis.

[Doc. No. 3].

The Clerk is DIRECTED to transmit a copy of this Order to the
warden of the institution where Mr. Westmoreland is confined.

The

warden of that institution, or his designee, is ORDERED to .remit the
$350 filing fee due from Mr. Westmoreland for this case in "monthly
payments of 20 percent of the preceding month's income credited to
.

.

[his]

account .

.

. each time the amount in the account

exceeds $10 until the filing fee[]" is paid in full.

28 U.S.C.

§ 1915(b)(2).
4

AO 72k

m-.. ano-*i\

/

1

Case l:12-c

D80-TWT Document 4 Filed 07/

2 Page 5 of 7

The Clerk is DIRECTED to terminate the reference of this case
to the undersigned.
SO RECOMMENDED, ORDERED, and DIRECTED, this 23rd day of July,

2012.
S/ E. Clavton Scofield III

E. CLAYTON SCOFIELD III
UNITED STATES MAGISTRATE JUDGE

5
\
A0 72A

1

A

D80-TWT Document 4 Filed Oli

Case l:12-c

2 Page 6 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND,
GDC No. 1041629,
Plaintiff,

PRISONER CIVIL RIGHTS
42 U.S.C. § 1983

v.

CIVIL ACTION NO.
1:12-CV-2080-TWT-ECS

ADELE GRUBBS et al.,
Defendants.
OmER FOR SERVICE OF REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
Attached Is the report and recommendation of the United States
Magistrate

Judge

in this

action

in

accordance with 28

§ 636(b)(1) and this Court's Civil Local Rule 72.

U.S.C.

Let the same be

filed and a copy, together with a copy of this Order, be served upon
counsel for the parties.
Pursuant to 28 U.S.C. § 636(b) (1), each party may file written
objections, if any, to the report and recommendation within fourteen
(14) days of service of this Order.

Should objections be filed,

they shall specify with particularity the alleged error or errors
made

(including reference by page number to the transcript if

applicable) and shall be served upon the opposing party.

The party

filing objections will be responsible for obtaining and filing the
transcript of any evidentiary hearing for review by the District
Court.

If no objections are filed, the report and recommendation

may be adopted as the opinion and order of the District Court and
any appellate review of factual findings will be limited to a plain

A0 72A

4.

Case l:12~c\

error review.

BO-TWT Document 4 Filed 07/r

United States v»

Slay.

1 Page 7 of 7

714 F. 2d 1093

(11th Cir.

1983).
The Clerk is DIRECTED to submit the report and recommendation
with objections, if any, to the District Court after expiration of
the above time period.
SO ORDERED,' this 23rd day of July, 2012.
S/ E. Clavton Scofield III
E. CLAYTON SCOFIELD III
UNITED STATES MAGISTRATE JUDGE

2

AO 72A

i%

J

APPENDIX H-

Georgia Supreme Court, Westmoreland v. Johnson. No. S16H0557. Certificate of Probable
Cause denied September 6, 2016.

1
surifcBMi-cotmT

&ixmm a

avm>s uilvtmoreland». <;l£,n joh vsoy wakde*

m
mil

imH

cmrpmiK H btnkral tkmt it be fecrrfoy droit*. AH Ik* Josrtcc*

Tnai Cmm One Ho, 11-HC-0J4

SUPREME COURT OF THE STATE OF GEORGIA
ClerkVOflfke, Atlanta
I certify »h« the above is a ttue cutset from the
mimitn of the Supreme Court of Georgia
Witness my signature and the scalof said court
hereto aflacd Ihe day and year taxi above written..
. Chief Deputy Ctoi

Scanned with CamScanner

APPEND IX J-

Ryan v. Thomas. 409 S.E.2d 507 (1991).

9/3/2020

Ryan v. Thomas, 409 SE 2d 507 - Ga: Supreme O

'91 - Google Scholar

409 S.E.2d 507(1991)
261 Ga. 661

RYAN
v.
THOMAS, Warden.
No. S91A0952.
Supreme Court of Georgia.
October 18, 1991.
Reconsideration Denied November 7, 1991.
508

*508 Steve Ryan, pro se.
Michael J. Bowers, Atty. Gen., C.A. Benjamin Woolf, Atty., State Law Dept., Atlanta, for Thomas.
CLARKE, Chief Justice.
Petitioner Steve Ryan was convicted of numerous crimes including armed robbery and kidnapping. At trial he was
represented by a public defender from the Fulton County Public Defender's Office (Public Defender's Office). His motion for
new trial was filed by a second public defender from the Public Defender's Office, and a third attorney from this office
represented him on direct appeal.
Following the affirmance of his appeal, Ryan v. State. 191 Ga.App. 477. 382 S.E.2d 196 (19891. Ryan filed a pro se habeas
corpus petition, maintaining that his trial counsel had rendered ineffective assistance. At the hearing on this petition, Ryan's
appellate counsel testified that prior to filing Ryan's appeal, he evaluated potential claims of ineffective assistance of trial
counsel, but determined that any such claims would be without merit. The habeas court concluded that since the ineffective
assistance claim was not raised on direct appeal, it was procedurally barred under Black u. Hardin. 255 Ga. 239. 336 S.E.2d
754 f19851
We granted Ryan's application for probable cause to determine whether, as a matter of law, a pro se petitioner is
procedurally barred from raising the issue of ineffective assistance where this issue is not raised on direct appeal, and both
trial and appellate counsel are members of the same public defender's office.
In White v. Kelso, 261 Ga. 32. 401 S.E.2d 733 (19911. we were faced with a similar issue. In that case one attorney was
appointed by the court to represent the petitioner at trial. A second attorney, not professionally related to the first, was
appointed to represent the petitioner on appeal. Following the affirmance of his conviction, the petitioner filed a pro se
habeas petition in which he alleged that his trial counsel had been ineffective. We noted that ineffective assistance claims
are often entertained for the first time on habeas corpus where a petitioner has had only one attorney throughout his legal
proceedings because "an attorney cannot reasonably be expected to assert or argue his or her own ineffectiveness." 261
Ga. 32. 401 S.E.2d 733. However, we held that where there is new counsel appointed or retained, he must raise the
ineffectiveness of previous counsel at the first possible instance in the legal proceedings. Thus, in White, the claim of
ineffectiveness of trial counsel was waived because appellate counsel had failed to raise it.
Were we to look no further than the rule set out in White, we would agree that Ryan's claim is procedurally barred because
the second attorney from the Public Defender's Office who represented Ryan on motion for new trial failed to raise an
ineffective assistance claim. However, in this case, unlike in White, all three attorneys involved in the various stages of
Ryan's legal proceedings were attorneys with the same Public Defender's Office.
As stated above, we noted in White that an attorney cannot reasonably be expected to assert his or her own
ineffectiveness. Likewise, it would not be reasonable to expect one member of a law firm to assert the ineffectiveness of
another member, where one represented a defendant at trial and the other represented him on motion for new trial or
appeal. On the other hand, a member of a law firm may not by his or her failure to raise an ineffective assistance claim

509

against a fellow member of his firm bar the rights of a defendant to ever raise that issue. To hold otherwise *509 would

https://scholar.google.com/scholar_case?case=16864426533924322928&q=ryan+v.+thomas+409+S.E.2d+507+(1991)&hl=en&as_sdt=80006&as_vis=1

1/2

9/3/2020

n v. Thomas, 409 SE 2d 507 - Ga: Supreme Court"

- Google Scholar

permit one member of the firm .
.ield his fellow member against accusations o.
.ectiveness at the expense of the
rights of the defendant. This the courts cannot allow. See, e.g., First Bank & c. Co. v. Zaaoria. 250 Ga. 844. 302 S.E.2d 674
(1983); Roper v. State. 258 Ga. 847 miat. 375 S.E.2d 600 (1989).
Regardless of whether an attorney has been appointed to act for the client or retained by the client, the client is entitled to
fidelity from the attorney and every member of the attorney's law firm. To that end we hold that attorneys in a public
defender's office are to be treated as members of a law firm for the purposes of raising claims of ineffective assistance of
counsel. As such different attorneys from the same public defender's office are not to be considered "new" counsel for the
purpose of raising ineffective assistance claims under White v. Kelso. Therefore, a defendant's right to raise such a claim
may not be barred by the failure of a succession of attorneys from the same public defender's office to raise it.
This case is remanded to the habeas court for a determination of the merits of Ryan's ineffective assistance of counsel
claims.
Judgment reversed and remanded.
All the Justices concur.

Save trees - read court opinions online on Google Scholar.

https://scholar.google.com/scholar_case?case=16864426533924322928&q=ryan+v.+thomas+409+S.E.2d+507+(1991)&hl=en&as_sdt=80006&as_vis=1

2/2

APPENDIX J-

State v. Jackson et al.. 697 S.E.2d. 757 (2010).

9/3/2020

State v. Jackson, 697 S.E.2d 757 - CourtListener.com
697 S.E.2d 757 (2010)

The STATE
V.

JACKSON et al.
No. S10A0070.
Supreme Court of Georgia.
June 28, 2010.
Patrick H. Head, District Attorney, Dana J. Norman, Jesse D. Evans, Asst. Dist. Atty., for appellant.
Tony L. Axam, Calvin A. Edwards, Jr., Atlanta, for appellees.
NAHMIAS, Justice.
Appellees, defendants Carlester Jackson and Warren Woodley Smith, allegedly conspired *758 with Jerold Daniels to rob a drug dealer
at gunpoint. The victim, however, also turned out to be armed, and he shot and killed Daniels in self-defense. A Cobb County grand jury
indicted Jackson and Smith on three counts of felony murder along with other offenses. The defendants moved to dismiss the felony
murder counts pursuant to State v. Crane, 247 Ga.779. 279 S.E.2d 695 (1981). The trial court granted the motion to dismiss, and the
State now appeals, asking us to overrule Crane. After thorough review, we conclude that Crane should be overruled, and we therefore
reverse. The causation issue presented should be decided by a properly instructed jury at trial, using the customary proximate cause
standard.
This should be an easy case for a Georgia appellate court. The question presented is what the term "causes" means as used in the
felony murder statute. See OCGA § 16-5-1 (c) ("A person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice."). In cases both before and after Crane, this Court interpreted that very
term to require "proximate causation." In addition, there are dozens of other cases from this Court and the Court of Appeals, before and
after Crane, that hold that the same term as used in other homicide statutes and in many other criminal and civil contexts means
proximate cause.
This case is difficult only because of Crane. There, in a short opinion that did not mention any of Georgia's extensive causation case law,
the Court held that the word "causes" in the felony murder statute requires not proximate causation, but that the death be "caused
directly" by one of the parties to the underlying felony. Id. at 779, 279 S.E.2d 695. Applying this new and more restrictive conception of
causation, the Court concluded that a defendant cannot be found guilty of felony murder when the intended victim of the underlying
felony kills the defendant’s accomplice, because that death is "caused directly" by the victim rather than the defendant. See id.
As shown below, the opinion in Crane was poorly reasoned, and perhaps because it is so incongruous with the rest of Georgia law, it
has not been consistently applied by this Court or the Court of Appeals in the ensuing three decades. Its holding has not been applied
uniformly in the specific context of felony murder, nor has its reasoning been followed in construing the same causation language in
other homicide statutes. The relevant facts of this case, however, are almost identical to Crane's, and so today we must either
reaffirm Crane or reject it. After careful consideration, we have concluded that Crane must be overruled. Stare decisis is an important
doctrine, but it is not a straightjacket. Crane's age and statutory nature are outweighed by the other factors undermining its precedential
authority, and it is important that the Court refute its reasoning to insure that the case can no longer be cited in efforts to pollute other
streams of our law.

The Factual and Procedural Background of This Case
1. The parties stipulated, for purposes of the motion to dismiss, that Jackson, Smith, and Daniels conspired to commit an armed robbery
of someone who the defendants believed was a drug dealer. Daniels approached the intended victim armed with a handgun, with
Jackson nearby and Smith waiting in the getaway vehicle. The victim, who was also armed, exchanged gunfire with Daniels, and he
ultimately shot and killed Daniels in self-defense. Jackson and Smith were later arrested. The indictment charged the defendants with,
among others offenses, felony murder. Tracking the statutory language, Count 1 alleged that both Jackson and Smith "did cause the
death of Jerold Daniels, a human being, ... while in the commission of a felony, to wit: Aggravated Assault." The indictment charged
Smith with two more counts, alleging that he caused Daniels's death while in the commission of the felony of possession of a firearm by
a convicted felon.
The defendants moved to dismiss the felony murder charges. They argued that because the victim fired the shot that killed their co­
conspirator, they did not directly cause Daniels's death. The trial court, bound by this Court's decision in Crane, granted the motion to
dismiss. The State *759 filed this direct appeal under OCGA § 5-7-1 (a)(1), asking us to overrule Crane.

"Cause" in Georgia's Homicide Statutes Means Proximate Cause
2. The felony murder statute provides that "[a] person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice." OCGA § 16-5-1 (c) (emphasis added). As in Crane, the question in this
case is whether a defendant who commits a felony whose intended victim kills a co-conspirator "causes" that death. The answer should
https://www.courtlistener.com/opinion/1346679/state-v-jackson/

1/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - CourtList^er.com

be straightforward. Georgia is a proximr
jse state. When another meaning is not indie
jy specific definition or context, the term
"cause" is customarily interpreted in almo&i all legal contexts to mean "proximate cause"—’ lu' 'at which, in a natural and continuous
sequence, unbroken by any efficient intervening cause, produces injury, and without which the result would not have occurred." Black's
Law Dictionary 1103 (5th ed. 1979).
Thus, this Court has explained that proximate cause is the standard for criminal cases in general. See, e.g., Skaggs v.
State, 278 Ga. 19. 19-20, 596 S.E.2d 159 (2004) ("In a criminal case, proximate cause exists when the accused's ""act or omission
played a substantial part in bringing about or actually causing the (victim's) injury or damage and... the injury or damage was either a
direct result or a reasonably probable consequence of the act or omission.'"" (citations omitted)). We have also said that proximate
cause is the standard for homicide cases in general. See, e.g., James v. State, 250 Ga. 655. 655, 300 S.E.2d 492 (1983) ("In Wilson v.
State, 190 Ga. 824. 829, 10 S.E.2d 861 (1940), we set out the following test for determining causation in homicide cases: 'Where one
inflicts an unlawful injury, such injury is to be accounted as the efficient, proximate cause of death, whenever it shall be made to appear,
either that (1) the injury itself constituted the sole proximate cause of the death; or that (2) the injury directly and materially contributed to
the happening of a subsequent accruing immediate cause of the death; or that (3) the injury materially accelerated the death, although
proximately occasioned by a pre-existing cause.'").
Consistent with this general rule, we have held in many cases and for many decades that proximate causation is the standard for
murder cases prosecuted under the murder statute, now codified as OCGA § 16-5-1. Thus, we have long held, in numerous cases, that
proximate causation is the test for malice murder, a crime defined using the identical "he ... causes" phrasing. See OCGA § 16-5-1 (a)
("A person commits the offense of murder when he unlawfully and with malice aforethought, either express or implied, causes the death
of another human being.").111 Finally, with respect to the statutory text at issue in this case, and in full accord with the general rule for
criminal and homicide cases and with our construction of the identical language in subsection (a) of the same statute, we have
repeatedly held, before and after Crane, that the phrase "he causes" in OCGA § 16-5-1 (c) establishes proximate causation as the
standard for liability in felony *760 murder cases.iPI
Indeed, in virtually all of Georgia’s many homicide and feticide statutes, including the frequently charged voluntary and involuntary
manslaughter and vehicular homicide statutes, the General Assembly has employed the same or very similar causation phrasing.
f3l*761 And to the extent those statutes have been interpreted by Georgia's appellate courts, once again the term "cause" has been
regularly construed as requiring proximate causation.141
As an original matter, therefore, we would decide this case simply by applying the customary legal meaning of "cause," which is
supported by the ample precedent interpreting the felony murder provision at issue, its identical sister provision in the murder statute,
and identical or substantially similar provisions in many other homicide statutes. We would hold that the phrase "he causes"
as *762 used in OCGA § 16-5-1 (c) requires the State to prove that the defendant's conduct in the commission of the underlying
felony proximately caused the death of another person. In the context of this case, proximate causation would exist if (to use "the rule"
for felony murder that the Court stated a year after deciding Crane) the felony the defendants committed "directly and materially
contributed to the happening of a subsequent accruing immediate cause of the death," Durden, 250 Ga. at 329, 297S.E.2d 237. or if (to
use language from a case decided 16 years before Crane) '"the homicide [was] committed within the res gestae of the felony'... and is
one of the incidental, probable consequences of the execution of the design to commit the robbery," Jones, 220 Ga. at
902, 142 S.E.2d 801 (citations omitted).
Whether the evidence in this case would establish such proximate causation beyond a reasonable doubt is a harder question, in part
because the stipulated facts we have before us are summary and the issue of proximate causation is so fact-intensive. That is why
proximate cause determinations are generally left to the jury at trial. See McGrath, 277 Ga.App. at 829, 627 S.E.2d 866 ("What
constitutes proximate cause is undeniably a jury question and is always to be determined on the facts of each case upon mixed
considerations of logic, common sense, justice, policy, and precedent.'" (citation omitted)).
The defendants here planned an armed robbery of someone they believed to be a drug dealer, who also turned out to be armed, an
occurrence not unusual among drug dealers. When their co-conspirator Daniels approached the victim with a handgun to execute the
robbery, the victim defended himself and killed Daniels. Perhaps more detailed evidence would show that, despite the dangerous and
violent nature of armed robbery and drug dealing, circumstances existed that made the fatal result of the defendants' felonious conduct
improbable in this case, or made the drug dealer victim's actions an "efficient intervening cause." On the limited record before us,
however, a jury could rationally conclude that the defendants' felonies played a "substantial part in bringing about" their accomplice's
death when they confronted at gunpoint a drug dealer, whose deadly response could be viewed as a "reasonably probable
consequence" of their acts. Skaggs, 278 Ga. at 19-20, 596 S.E.2d 159 (citations and punctuation omitted). Thus, as an original matter,
we would have little hesitation reversing the trial court's order and remanding the case for trial and decision by a jury properly charged
on causation using language adapted from our proximate cause homicide cases.

State v. Crane
3. This is not, however, an original matter. The same legal issue was presented, in much the same factual scenario, nearly 30 years ago
in Crane. In that case, Crane and three confederates were burglarizing a home when the homeowner shot and killed one of them in
defense of himself and his property. See 247 Ga. at 779, 279 S.E.2d 695. The Court recognized that the case turned on whether the
term "he causes," as used in the felony murder statute, can extend to the death of an accomplice killed by the intended victim. Id. In its
one-and-a-half page opinion, however, the Crane Court did not consider the customary legal meaning of "cause" or look to our thenexisting case law interpreting that term as used in the felony murder statute, the malice murder statute, and homicide and other criminal
statutes in general. Instead, the Court baldly asserted that it was faced with the choice between limiting felony murder to deaths
"caused directly by one of the parties to the underlying felony" or construing the statute "to include also those deaths indirectly caused
by one of the parties." Id. (footnote omitted; emphasis supplied). Reflecting on the only two interpretations of "he causes" that it

https://www.courtlistener.com/opinion/1346679/state-v-jackson/

2/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - Cc

‘ener.com

considered, the Court stated that "[\
juld, if allowed a choice, favor the constructio.
,ich would criminalize the conduct involved in
the present case." Id. at 780, 279 S.E.zd 695. Because a criminal statute was being interpreted, however, the Court concluded that "we
are constrained by principle to rule in behalf of the accuseds." Id.
We agree that the rule of lenity would require the Court to adopt the interpretation that favored the accuseds if, after applying *763 all
other tools of statutory construction, the Court determined that "directly causes" and "indirectly causes" were the only possible meanings
of the word "causes" in OCGA § 16-5-1 (c) and that equally strong reasoning supported either interpretation, leaving the statute
ambiguous. See Banta v. State, 281 Ga. 615, 617-618, 642 S.E.2d 51 (2007) ("'The rule of lenity ... applies only when, after consulting
traditional canons of statutory construction, we are left with an ambiguous statute.1" (quoting United States v. Shabani, 513 U.S. 10.
17, 115S. Ct. 382, 130 L. Ed. 2d 225 (1994))). But the Crane Court did nofapply the traditional canons of statutory construction before
jumping to that conclusion, and the binary reading of the causation element proposed by the Crane Court finds no foundation in our legal
tradition or our case law, none of which the Court mentioned.151 Indeed, other than Crane and cases discussing Crane, we have found
not a single instance in our extensive causation case law where the Court has suggested that the word "causes" can mean only "directly
causes" or "indirectly causes."
To the contrary, we have consistently employed the more nuanced concept of proximate causation, which does not track the binary, and
often unhelpful, direct-indirect dichotomy of Crane. Proximate causation imposes liability for the reasonably foreseeable results of
criminal (or, in the civil context, tortious) conduct if there is no sufficient, independent, and unforeseen intervening cause. That definition
would include, at least in some factual scenarios, a deadly response against one of the perpetrators by the intended victim of a
dangerous felony like burglary or armed robbery.

The Inconsistent Application of Crane's Holding
4. No later cases have bolstered Crane's reasoning, nor do the dissents today make any effort to do so. Indeed, neither this Court nor
the Court of Appeals has consistently applied Crane's holding that the words "he causes" in the felony murder statute "require the death
to be caused directly by one of the parties to the underlying felony." 247 Ga. at 779, 279 S.E.2d 695 (footnote omitted). In nearly three
decades, the Court has applied Crane wholeheartedly on just two occasions. The first came a year after Crane, when the Court
reversed a felony murder conviction where a police officer killed a bystander during a shootout with the defendant. See Hill v.
State, 250 Ga. 277, 278-280, 295 S.E.2d 518 (1982).161 The second *764 time was in Hyman v.
State, 272 Ga. 492, 531 S.E.2d 708 (2000). Police came to Hyman's home looking for a murder suspect, and he falsely told them that
the suspect was not there. When the police were allowed to search the house, the suspect shot and killed one of the officers. See id. at
493, 531 S.E.2d 708. Hyman was charged with murder while in the commission of the felony of making a false statement, but the Court
held that the "direct cause” of the officer's death was the suspect, with whom Hyman was not acting in concert, and so under Crane his
felony murder conviction was reversed. See 272 Ga. at 493, 531 S.E.2d 708. It is possible that the same result would have been
reached under the proximate cause test, consideration of which the Hyman Court pretermitted. See id.
In another case, however, the Court upheld the defendant's felony murder conviction based upon the death of a bystander killed by
someone who was engaging in a gunfight with the defendant. See Smith v. State, 267 Ga. 372. 375-376, 477 S.E.2d 827 (1996). To
reach that result, the Court had to redefine the Crane test as whether the death of the bystander was "directly caused" by "a willing
participant" (rather than a co-party) in the gunfight. 267 Ga. at 375, 477 S.E.2d 827. The Court struggled to distinguish Crane and Hill as
cases in which "the homicides were not committed by either the defendant or someone acting in concert with him." 267 Ga. at
376, 477 S,E,2d 827. The shooter in Smith, however, was plainly "one of the parties to the [defendant's] underlying felony," Crane, 247
Ga. at 779, 279 S.E.2d 695 (footnote omitted), and it is questionable whether someone charged with committing an aggravated
assault against the defendant by shooting at him, see Smith, 267 Ga. at 372, n. 1, 477 S.E,2d827. can really be said to be "acting in
concert with him," id. at 376, 477 S.E.2d 827.
In other cases since Crane, we have upheld felony murder convictions where the death could hardly be said to have been "caused
directly" by the defendant's acts. See McCoy v. State, 262 Ga. 699. 700, 425 S.E.2d 646. 647-48 (1993) (upholding felony murder
conviction by finding that the death of a firefighter who fell into a well behind a burning house and died of asphyxiation was "directly
attributable" to the defendant's felonious conduct in setting fire to the house); Durden, 250 Ga. at 329, 297 S.E.2d 237 (affirming felony
murder conviction where a storeowner responding to a burglary died of a heart attack after exchanging shots with the defendant). In
several other felony murder cases, we have simply ignored Crane and applied the proximate cause test. See, e.g., the post-1981 cases
cited in footnote 2 above.
Moreover, if Crane's reasoning is solid and its holding deserving of precedential value, as Justice Thompson's dissent suggests, see
Dissenting Op. at 769, then the term "causes" and the identical or substantially similar causation language used in Georgia's other
homicide statutes should also be susceptible to the same "directly causes" versus "indirectly causes" ambiguity posited in Crane. And
because all those statutes are also penal, the rule of lenity should require that the "directly causes" interpretation be applied in those
contexts as well. But that *765 has not happened. To the contrary, this Court and the Court of Appeals have continued to apply the
traditional proximate cause standard in those situations. See, e.g., the post-1981 cases cited in footnotes 1 and 4 above.
Crane has caused the most tension in vehicular homicide cases, which, like felony murder cases, sometimes involve deaths that are
"directly" caused by innocent third parties acting as a result of the defendant's precipitating criminal acts. Thus, in Hill, this Court held
that, under Crane, a defendant did not "cause" the death of another person and so was not guilty of felony murder when a police officer
at whom the defendant was shooting shot back and killed an innocent bystander. See 250 Ga. at 280, 295 S.E.2d 518. Yet the Court of
Appeals, in a case involving almost the same causation language and a similar fact pattern, held that a defendant was guilty of vehicular
homicide when a police officer from whom he was illegally fleeing bumped his truck in an effort to stop it (much like an officer returning
fire to stop an ongoing felony) and caused the truck to crash, killing an innocent bystander (a baby riding in the truck). See Pitts, 253
Ga.App. at 374, 559 S.E.2d 106. The Pitts court reached this conclusion by simply ignoring Crane and applying the usual proximate
cause test. See id. at 374-375, 559 S.E.2d 106.
https://www.courtlistener.com/opinion/1346679/state-v-jackson/

3/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - CourtLi'

'.com

Similarly, in Ponder v. State, 274 Ga.Api.
, 616 S.E.2d 857 (2005), the defendant, who \.
nder the influence and recklessly fleeing
the police, caused a pursuing police car to veer into oncoming traffic, where the police car collided with a Buick, killing the officer. See id.
at 94-96, 616 S.E.2d 857. Like the homeowner who fired the fatal shot in Crane, the "direct cause" of the officer's death was the driver of
the Buick. But the Court of Appeals, again without mention of Crane, upheld the conviction because the evidence supported the jury's
finding that the defendant's criminal conduct was the proximate cause of the officer’s death. See 274 Ga.App. at 95-96, 616 S.E.2d857.
In McGrath v. State, Til Ga.App. 825, 627 S.E.2d 866 (2006), the chain of causation was even more indirect. McGrath, who was driving
recklessly and under the influence on 1-85, crashed into a car driven by Kar. Both vehicles were wrecked, and McGrath and Kar were
injured. Burroughs-Brown, a nurse, saw the wreck and stopped to assist. Another car driven by Ramirez, who could not see BurroughsBrown until it was too late due to poor visibility, hit her. She was pinned briefly between Kar's and Ramirez's cars, but then she fell onto
the highway, where two other vehicles ran over her. See id. at 826-827, 627 S.E.2d 866. Citing Crane, McGrath argued that he did not
directly cause Burroughs-Brown's death, and faithful application of Crane's reasoning would indeed have required reversal. But the
Court of Appeals again upheld the conviction under the proximate cause test. See McGrath, 277 Ga.App. at 828-830, 627 S.E.2d 866.
In a footnote, the court distinguished Crane on the ground that it "involved the felony murder statute, which was subject to two
interpretations" and asserted that "[sjuch is not the case here, since the vehicular homicide statute has been consistently interpreted and
applied." Id. at 830 n. 4, 627S.E.2d 866. The Court of Appeals distinguished Crane similarly in an earlier vehicular homicide case.
See Johnson, 170 Ga.App. at 434, 317 S.E.2d 213 ("Crane is clearly inapposite to the instant case where there is no evidence of indirect
causation and which involves construction of an entirely different statute.").
Vehicular homicide and felony murder may be defined in "entirely different" statutes, in terms of their Code sections, but the relevant
causation language is indistinguishable, compare OCGA § 40-6-393(a) ("Any person who, without malice aforethought, causes the
death of another person through the violation of [various code sections] commits the offense of homicide by vehicle in the first degree...."
(emphasis supplied)), with OCGA § 16-5-1 (c) ("A person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice...." (emphasis supplied)). If Crane is good law, then this Court's
construction of the causation language in OCGA § 16-5-1(c) should be binding on the Court of Appeals when it interprets the virtually
identical causation *766 language in the vehicular homicide statute. See Ga. Const, of 1983, Art. VI., Sec. VI, Par. VI ("The decisions of
the Supreme Court shall bind all other courts as precedents."). Crane is, however, no longer good law.

Stare Decisis Considerations
5. Stare decisis is an important principle that promotes the rule of law, particularly in the context of statutory interpretation, where our
incorrect decisions are more easily corrected by the democratic process. See Smith v. Salon Baptiste, 287 Ga. 23,
30, 694 S.E.2d 83(20101 (Nahmias, J., concurring specially). However, stare decisis is not an "'inexorable command,' nor ’a mechanical
formula of adherence to the latest decision.'... Stare decisis is instead a 'principle of policy."’ Citizens United v. Fed. Election
Commn., 558 U.S.
, 130 S. Ct. 876. 920, 175 L. Ed. 2d 753 (2010) (Roberts, C.J., concurring) (citations omitted). In considering
whether to reexamine a prior erroneous holding, we must balance the importance of having the question decided against the importance
of having it decided right. Id. In doing so, we consider factors such as the age of the precedent, the reliance interests at stake, the
workability of the decision, and, most importantly, the soundness of its reasoning. See Montejo v. Louisiana, 556 U.S.
129 S.
Ct. 2079. 2088-2089, 173 L. Ed. 2d 955 (2009).
As demonstrated above, Crane's reasoning is unsound and contrary to the body of our law. Crane's holding may be workable in its
specific context—the death of a co-party directly caused by the intended victim of the underlying felony. As just discussed, however, this
Court and the Court of Appeals have been unable or unwilling to apply Crane's reasoning to all felony murder cases, much less to the
many other homicide statutes that use the same causation language. In addition, Crane affects no property or contract issues and
establishes no substantive rights, so it creates no meaningful reliance interests. (To be sure, the potential conspiring felon who is wellread in the law might be slightly less deterred from committing a dangerous felony by the belief that if one of his co-conspirators is killed
by the intended victim or a police officer, he will not face a murder charge, but that is not the sort of reliance the law usually recognizes
in the stare decisis analysis.)
That leaves, on the side of reaffirming Crane, only its age and its statutory nature. That is all Justice Thompson's dissent relies upon.
See Dissenting Op. at 769-70. Crane is indeed nearly three decades old, and in Crane and the only two subsequent cases in which we
actually applied its holding, the Court expressly noted that the General Assembly could correct the result. See Crane, 247 Ga. at
780, 279 S.E.2d 695 ("The choice of whether or not the conduct in the present case should be violative of our criminal statutes lies with
the General Assembly."); Hyman, 272 Ga. at 493, 531 S.E.2d 708 ("If this result be viewed as a defect in our felony murder statute, the
remedy lies with the legislature." (quoting Hill, 250 Ga. at 280, 295 S.E.2d 5181).t71 "Without strong reason to set aside a long-standing
interpretation," Justice Thompson's dissent says, "we will not do so in the face of legislative acquiescence." Dissenting Op. at 769. But
see Durrence v. State, 287 Ga. 213, 216, n. 5, 695 S.E.2d 227 (2010) (Thompson, J.) (unanimously overruling a 26-year-old statutory
interpretation case in a footnote, briefly explaining why the precedent was decided incorrectly but not mentioning "legislative
acquiescence").
We have explained at length the strong reasons that exist to overrule Crane, which the dissents do not refute. Moreover, Crane's odd
reasoning and the inconsistent application of its holding by both appellate courts make resort to "legislative acquiescence" particularly
dubious.[8l In large part *767because our Court and the Court of Appeals have not consistently applied Crane, it has not had the sort of
obviously far-reaching effects that are likely to stimulate a legislative response. Moreover, prosecutors will only rarely go to the trouble of
charging felony murder where Crane appears to apply, much less appealing the issue when the trial court follows our precedent (as the
trial courts must). Consequently, most of Crane's direct effect—the felony murder prosecutions that are never brought—goes unseen.
Furthermore, it is not clear how the General Assembly would go about correcting Crane. If the legislature revised the "he causes"
language in OCGA § 16-5-1 (c) to say "he proximately causes," without simultaneously revising all the other homicide statutes that use
similar causation language (including the malice murder provision in subsection (a) of the same statute), the effort could backfire. We
could expect to see appeals by defendants arguing that the legislature's revision of one provision indicates that the language remaining
https://www.courtlistener.com/opinion/1346679/state-v-jackson/

4/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - Co

3ner.com

in all the other provisions means sor.
ig else—what we said such language meant i. ,ane, that is, "directly causes." Nor do
legislatures commonly undertake to enact the highly detailed amendment that would be required to respond very specifically
to Crane— assuming that, in light of the inconsistent application of Crane, the General Assembly could even tell for sure what it needed
to correct.
In light of these considerations, we do not believe "that we can properly place on the shoulders of [the General Assembly] the burden of
the Court's own error." Girouard v. United States, 328 U.S. 61.69, 66 S. Ct. 826. 90 L. Ed. 1084 (1946). "Certainly, stare decisis should
not be applied to the extent that an error in the law is perpetuated," Etkind v. Suarez, 271 Ga. 352. 357, 519 S.E.2d 210 (1999), and it
would not foster the objectives of predictability, stability, and consistent development of legal principles to reaffirm a decision that
branched away from the path of prior and subsequent causation law, has rarely been followed, and if truly followed would disrupt many
areas of settled law.

Conclusion
6. For these reasons, we hereby overrule State v. Crane, 247 Ga. 779. 279 S.E.2d 695. and our subsequent cases relying
upon Crane. We hold that the felony murder statute requires only that the defendant's felonious conduct proximately cause the death of
another person. We therefore reverse the order of the trial court and remand the case for the jury to decide the causation question at
trial.
Judgment reversed and case remanded.
All the Justices concur, except HUNSTEIN, C.J., and BENHAM and THOMPSON, JJ., who dissent.
HUNSTEIN, Chief Justice, dissenting.
The State charged appellees Jackson and Smith with the felony murder of Daniels, who was shot and killed in self-defense by Hogan
after Daniels, together with appellees, attempted to rob Hogan at gunpoint. Relying on State v.
Crane, 247 Ga. 779. 279 S.E.2d 695 (1981), the trial court dismissed the felony murder charges. In Crane, this Court held that a
defendant is not criminally liable for felony murder in those cases where *768 the murder victim was killed by someone other than the
defendant or another party to the commission of the underlying felony. Focusing on certain language in the felony murder statute,[91 the
majority overrules Crane and reverses the trial court. I cannot agree with the majority for the reason that the holding in Crane is
compelled by the plain and unambiguous language in OCGA § 16-2-20, the statute that identifies those persons who may be charged
with and convicted of the commission of a crime.
OCGA § 16-2-20 provides:

1
R

(a) Every person concerned in the commission of a crime is a party thereto and may be charged with
and convicted of commission of the crime.

I

(b) A person is concerned in the commission of a crime only if he:

1

(1) Directly commits the crime;

|

(2) Intentionally causes some other person to commit the crime under such circumstances that the
other person is not guilty of any crime either in fact or because of legal incapacity;

(3) Intentionally aids or abets in the commission of the crime; or

II
I

(4) Intentionally advises, encourages, hires, counsels, or procures another to commit the crime.

(Emphasis supplied.)
This Court recognized the effect of OCGA § 16-2-20 on the felony murder statute in Hill v. State, 250 Ga. 277(1)
(b), 295S.E.2d 518 (1982).[1°1 Hill was convicted of the malice murder of police officer Mullinax and the felony murder of Darryl Toles, a
bystander who was inadvertently shot by Mullinax when the officer fired back in response to Hill's attack. Citing Crane, this Court
reversed the felony murder conviction because the evidence was clear that Hill "did not directly cause the death of Darryl Toles and may
not be convicted therefor." Id. at 280(1 )(b), 295 S.E.2d 518. In the accompanying footnote this Court pointed out that OCGA § 16-2-20
(former Code Ann. § 26-801)

https://www.courtlistener.com/opinion/1346679/state-v-jackson/

5/9

9/3/2020

3

I
1
|
I

State v. Jackson, 697 S.E.2d 757 - CourtU

'■.com

provides that under certain circumstances, one may be held responsible for a crime one did not directly
commit. A review of that Code section shows none of the circumstances to be applicable here. The
closest, perhaps, is [OCGA § 16-2-20](b)(2) which allows a finding of criminal liability where one
"intentionally causes some other person to commit the crime under such circumstances that the other
person is not guilty of any crime either in fact or because of legal incapacity." (Emphasis supplied.)
There is, however, in this case no allegation or evidence that [Hill] intentionally caused Officer Mullinax
to shoot Darryl Toles.

Regardless whether or not appellees directly or proximately caused the death of Daniels, as Crane held, there is no question under the
facts stipulated by the parties that appellees did not directly commit the alleged crime; hence, they cannot come within the ambit of
OCGA § 16-2-20(b)(1). A review of the indictment establishes that the State does not allege that appellees "intentionally cause[d]"
Hogan, the intended armed robbery victim, to shoot and kill Daniels,[111 so that OCGA § 16-2-20(b)(2) is not applicable. Finally, the facts
and allegations present no basis for considering Hogan to be a "person concerned in the commission of the alleged felony murder
under any other provision in OCGA § 16-2-20.
By reinterpreting OCGA § 16-5-1 (c) to authorize defendants such as appellees to be charged with and convicted of felony
murder *769 when a defendant unintentionally but "proximately" causes some other person to commit the murder, the majority has
judicially rewritten OCGA § 16-2-20(b) to add a fifth category of criminal liability. Contrary to the majority’s note, neither "[o]ur traditional
proximate cause law” nor the questionable case law interpreting OCGA § 40-6-393(a) authorizes the majority’s cavalier expansion of
OCGA § 16-2-20(b). Maj. Op., fn. 6. I understand that many members of this Court are frustrated that the Legislature, despite our
repeated exhortations, see, e.g., Hyman v. State, 272 Ga. 492. 493, 531 S.E.2d 708 (2000) (authored by Carley, J.), has declined to
amend OCGA § 16-2-20 to provide for criminal liability in situations of this nature. As currently enacted nothing in OCGA § 16-2-20
makes a person criminally liable when that person unintentionally but proximately causes some other person to commit a crime. But
creating this fifth theory of criminal liability all on our own is blatant judicial activism. The Legislature, not this Court, gets to decide
whether a person in this type of situation is a party to a crime. I cannot agree to this judicial usurpation of the legislative prerogative.
Instead, because OCGA § 16-2-20(b) expressly provides that a person is concerned in the commission of a crime "only if’ he comes
within one of its four categories, thereby unambiguously setting forth all legally recognized theories of criminal liability in this State, and
there is no allegation or evidence that appellees qualified under any of those four categories as parties to the crime of felony murder, I
would hold that the trial court's dismissal of the felony murder charges against appellees was correct and should be affirmed.
Accordingly, I respectfully dissent to the majority's opinion.
I am authorized to state that Justice BENHAM joins in this dissent.
THOMPSON, Justice, dissenting.
The Georgia felony murder statute provides that "[a] person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice." OCGA § 16-5-1 (c). In State v.
Crane, 247 Ga. 779. 279 S.E.2d695 (1981), this Court unanimously held that a "death of one of the would-be felons at the handof the
intended victim of the underlying felony" does not invoke the felony murder rule because the phrase "he causes" in the statute must be
strictly construed to mean one of the defendants directly caused the death. Crane, supra at 779, 279 S.E.2d 695. The State concedes
that Crane is factually on all fours and accurately states the law in Georgia, but it urges this Court to overrule it.
The meaning of "causes" was open to two possible interpretations in Crane, and we chose the one that favored the accused rather than
the State. Id. As we have already said twice in the nearly 30 years since Crane, ”'[i]f this result be viewed as a defect in our felony
murder statute, the remedy lies with the legislature.’" Hyman v. State, 272 Ga. 492. 493, 531 S.E.2d 708 (2000) (quoting Hill v.
State, 250 Ga. 277. 280, 295 S.E.2d 518 (1982)).

I
|
|
|
a

"[E]ven those who regard 'stare decisis’ with something less than enthusiasm recognize that the
principle has even greater weight where[, as here,] the precedent relates to interpretation of a statute."
[Cit.] A reinterpretation of a statute after the General Assembly's implicit acceptance of the original
interpretation would constitute a judicial usurpation of the legislative function.

Smith v. Baptiste, 287 Ga. 23, 30, 694 S.E,2d 83 (2010), (Nahmias, J., concurring specially), quoting Abernathy v. City of
Albany, 269 Ga. 88. 90, 495 S.E.2d 13 (1998). Without strong reason to set aside a long-standing interpretation, we will not do so in the
face of legislative acquiescence. "If this Court has been wrong from the beginning, on this subject, let the legislative power be invoked to
prescribe a new rule for the future; until altered by that power, we are disposed to adhere to the rule which has been so long applied by
our Courts and is so well known to the legal profession." Etkind v. Suarez, 271 Ga. 352. 358(5), 519 S.E,2d 210 (1999). Thus, unless
and until the General Assembly declares that the element of causation in the felony murder statute actually means proximate causation,
we should adhere to our interpretation of the statute as set forth in Crane.

https://www.courtlistener.com/opinion/1346679/state-v-jackson/

6/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - Court!

>r.com

*770 "[N]o judicial system could do society's work if it eyed each issue afresh in every case that raised
it. (Cit.)... The application of the doctrine of stare decisis is essential to the performance of a wellordered system of jurisprudence. In most instances, it is of more practical utility to have the law settled
and to let it remain so, than to open it up to new constructions, as the personnel of the court may
change, even though grave doubt may arise as to the correctness of the interpretation originally given
to it. (Cits.)" [Cit.]
Etkind, supra at 356-357(5), 519 S.E.2d 210.
"Certainly, stare decisis should not be applied to the extent that an error in the law is perpetuated. [Cit.] However, [Crane] is not an
erroneous statement of the law of Georgia, but merely a pronouncement by a majority of this Court as to the proper construction of the
[criminal] law of this state on a matter of first impression." Etkind, supra at 357(5), 519 S.E.2d 210. '"Stare decisis is the preferred
course because it promotes the evenhanded, predictable, and consistent development of legal principles, fosters reliance on judicial
decisions, and contributes to the actual and perceived integrity of the judicial process.’" Smith v. Baptiste, supra at 31,694 S.E.2d 83.
(Nahmias, J., concurring specially).
The identical fact pattern that was considered in Crane is now again before the Court, and the statute has remained unaltered by the
General Assembly despite the passage of 29 years. All that has changed is the composition of the Court. We cannot and should not
take it upon ourselves to expand upon the statutory language to achieve a result not expressed and not intended by the legislature. To
do so is to eliminate predictability, stability, and continuity that is essential to a well-ordered judicial system. For these reasons, I must
respectfully dissent.
I am authorized to state that Chief Justice HUNSTEIN and Justice BENHAM join in this dissent.

NOTES
[1] See, e.g., Wilson, 190 Ga. at 829, 10 S.E.2d 861 (upholding proximate cause instruction and malice murder conviction where the
defendant smashed the victim's skull with a hatchet and the victim died nine months later from infection and gangrenous lung
abscess); Ward v. State, 238 Ga. 367. 369, 233 S.E.2d 175 (1977) (holding that, even if the defendant's act of throwing the drunken
victim off a bridge into a river "did not directly cause" the victim's death, "the jury was authorized to find that this act either materially
contributed to the death ... or materially accelerated it" under the proximate cause test set forth in Wilson and other cases); Fleming v.
State, 240 Ga. 142. 145, 240 S,E,2d 37 (1977) (affirming the trial court's refusal to instruct the jury to acquit on malice murder if it found
that the defendant mortally shot the victim but also found that the "immediate cause" of the victim's death was drowning, because "[tjhe
evidence established that the wounds were the proximate cause of the death"); Bishop v. State, 257 Ga. 136.
140, 356 S.E.2d 503 (1987) (holding in a malice murder case that "'[wjhere one inflicts an unlawful injury, such injury is the proximate
cause of death if the injury "directly and materially contributed to the happening of a subsequent accruing immediate cause of the
death,""' noting that "[tjhis court has held evidence of death by pulmonary embolism resulting from treatment after wounds were inflicted
by a defendant can present a question for a jury as to whether the wound was the proximate cause of death." (citations omitted)).
[2] See, e.g., Jones v. State, 220 Ga. 899. 902, 142 S.E.2d 801 (1965) (" A murder may be committed in perpetration of a felony,
although it does not take place until after the felony itself has been technically completed, if the homicide is committed within the res
gestae of the felony.' Certainly the killing is a part of the res gestae of the robbery in this case ... and is one of the incidental, probable
consequences of the execution of the design to commit the robbery." (citations omitted)); Dupree v. State, 247 Ga. 470. 470-471,
472, Til S.E.2d 18 (1981) (holding, where the victim died of heart failure brought on by stress and injuries incurred during a robbery,
that the evidence was sufficient to find that "the conduct of the appellant in perpetrating the robbery constituted the proximate cause of
the death of the deceased"); Larkin v. State, 247 Ga. 586. 587, 278 S.E.2d 365 (1981) (upholding felony murder conviction against the
defendant's claim that the evidence was insufficient to show that "he caused his mother-in-law's death" when he stabbed her while
assaulting his wife and she later died from a pulmonary embolus as a complication of surgery to re-stitch the knife wound, explaining
that "[wjhere one inflicts an unlawful injury, such injury is the proximate cause of death if the injury 'directly and materially contributed to
the happening of a subsequent accruing immediate cause of the death'" (citation omitted)); Durden v. State, 250 Ga. 325.
329, 297 S.E.2d 237 (1982) (affirming felony murder conviction where a store owner responding to a burglary died of a heart attack after
exchanging shots with the defendant, explaining that "the rule may be stated as follows: Where one commits a felony upon another,
such felony is to be accounted as the efficient, proximate cause of the death whenever it shall be made to appear either that the felony
directly and materially contributed to the happening of a subsequent accruing immediate cause of the death, or that the injury materially
accelerated the death, although proximately occasioned by a pre-existing cause."); Williams v. State, 255 Ga. 21.
22, 334 S.E.2d 691 (1985) (relying on Durden to uphold felony murder conviction where the defendant shot the victim in the leg, causing
him to fall out of his vehicle, which then rolled over and killed him, because the aggravated assault "directly and materially contributed to
his death by asphyxiation"); State v. Cross, 260 Ga. 845. 847, 401 S.E.2d 510 (1991) (holding that "OCGA § 16-5-1 (c), defining felony
murder, requires that the death need only be caused by an injury which occurred during the res gestae of the felony" and upholding an
indictment that charged the death of a baby more than a year after the defendant shook her (emphasis in original)); Skaggs, 278 Ga. at
19-20, 22, 596 S.E.2d 159 (applying the general test for proximate causation in a felony murder case and holding that the defendant's
aggravated assault by hitting and kicking the victim proximately caused the victim's death by causing him to fall and fatally hit his head
on the ground, rejecting the argument based upon Crane that the proximate cause jury instruction erroneously "failed to include
additional language expounding upon proximate cause when the accused does 'not directly cause the death'").
[3] See, all with emphasis supplied, OCGA § 6-2-5.2 ("Any person who, without malice aforethought, causes the death of another
person through the violation of Code Section 6-2-5.1 [operating aircraft under the influence] commits the offense of homicide by
aircraft...."); § 16-5-2(a) ("A person commits the offense of voluntary manslaughter when he causes the death of another human
https://www.courtlistener.com/opinion/1346679/state-v-jackson/

7/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - Court1

ir.com

being under circumstances which wouk
arwise be murder and if he acts solely as the ,
• i of a sudden, violent, and irresistible
passion...."); § 16-5-3(a) ("A person commits the [felony] offense of involuntary manslaughter in the commission of an unlawful act
when he causes the death of another human being without any intention to do so by the commission of an unlawful act other than a
felony.”), (b) ("A person commits the [misdemeanor] offense of involuntary manslaughter in the commission of a lawful act in an unlawful
manner when he causes the death of another human being without any intention to do so, by the commission of a lawful act in an
unlawful manner likely to cause death or great bodily harm."); § 16-5-80(b) ("A person commits the offense of feticide if be or she willfully
and without legal justification causes the death of an unborn child by any injury to the mother of such child...."), (d) ("A person commits
the offense of voluntary manslaughter of an unborn child when such person causes the death of an unborn child under circumstances
which would otherwise be feticide and if such person acts solely as the result of a sudden, violent, and irresistible passion...."); § 40-6393(a) ("Any person who, without malice aforethought, causes the death of another person through the violation of [various motor
vehicle statutes] commits the offense of homicide by vehicle in the first degree...."), (b) ("Any driver of a motor vehicle who, without
malice aforethought, causes an accident which causes the death of another person and leaves the scene of the accident in violation of
subsection (b) of Code Section 40-6-270 commits the offense of homicide by vehicle in the first degree...."), (c) ("Any person who
causes the death of another person, without an intention to do so, by violating any [other] provision of this title ... commits the offense of
homicide by vehicle in the second degree when such violation is the cause of said death....")-, § 40-6-393.1(b)(1) ("A person commits the
offense of feticide by vehicle in the first degree if he or she causes the death of an unborn child by any injury to the mother of such child
which would be homicide by vehicle in the first degree....''), (c)(1) ("A person commits the offense of feticide by vehicle in the second
degree if he or she causes the death of an unborn child by any injury to the mother of such child by violating any [other] provision of this
title ... which would be homicide by vehicle in the second degree...."); § 40-6-396(a) ("Any person who, without malice
aforethought, causes the death of another person through the violation of subsection (a) of Code Section 40-6-26 commits the offense of
homicide by interference with an official traffic-control device or railroad sign or signal...."); § 52-7-12.2(a) ("Any person who, without
malice aforethought, causes the death of another person through the violation of [various code sections] commits the offense of
homicide by vessel in the first degree."), (b) ("Any operator of a vessel who, without malice aforethought, causes a collision or accident
which causes the death of another person and leaves the scene of the collision or accident in violation of subsection (a) of Code Section
52-7-14 commits the offense of homicide by vessel in the first degree...."), (c) ("Any person who causes the death of another
person, without an intention to do so, by violating any [other] provision of this title ... commits the [misdemeanor] offense of homicide by
vessel in the second degree when such violation is the cause of said death.")-, § 52-7-12.3(b)(1) ("A person commits the offense of
feticide by vessel in the first degree if he or she causes the death of an unborn child by any injury to the mother of such child through the
violation of [various code sections]...."), (c)(1) ("A person commits the offense of feticide by vessel in the second degree if he or she
causes the death of an unborn child by any injury to the mother of such child by violating any [other] provision of this title....”).
[4] See, e.g., Cain v. State, 55 Ga.App. 376, 381-382, 190 S.E. 371 (1937) ("In a case of manslaughter, the negligence of the defendant
must be the proximate cause of the death, in order to constitute such crime.... "Whoever does a wrongful act is answerable for all the
consequences that may ensue in the ordinary course of events, though such consequences are immediately and directly brought about
by an intervening cause, if such intervening cause was set in motion by the original wrong-doer, or was in reality only a condition on or
through which the negligent act operated to induce the injurious result.'" (citations omitted)); Coley v. State, 117 Ga.App. 149,
151, 159 S.E.2d 452 (1968) ("To convict for the offense of involuntary manslaughter in the commission of an unlawful act, it is
necessary, among other things, that the death be the proximate result of the unlawful act. Or, as it may otherwise be stated, the unlawful
act must be found by the jury to be the proximate cause of the homicide." (citations omitted)); Cook v. State, 134 Ga.App. 357,
359, 214 S.E.2d 423 (1975) (approving detailed proximate cause instruction on murder, voluntary manslaughter, and involuntary
manslaughter charges); Johnson v. State, 170 Ga.App. 433, 434, 317 S.E.2d 213 (1984) ("The term and concept of proximate cause
has been applied in vehicular homicide cases in this state for many years."); Hickman v. State, 186 Ga.App. 118,
119, 366 S.E.2d 426 (1988) (rejecting claim in voluntary manslaughter case that the victim did not die "as a direct, proximate result of
the strike or strikes inflicted by defendant because the cause of death was due to an intervening factor: pulmonary embolism,"
citing Heath v. State, 77 Ga.App. 127, 130-131. 47 S.E.2d 906/1948)1: Anderson v. State, 226 Ga. 35. 37, 172S.E.2d 424 (1970)
(approving charge on involuntary manslaughter in the commission of an unlawful act, explaining that the "excerpt complained of when
considered with the entire charge plainly instructed the jury that the act of the defendant must have been the proximate cause of the
death of the deceased"); Miller v. State, 236 Ga.App. 825, 828, 513 S.E.2d 27 (1999) ("In vehicular homicide cases, the State must
prove that the defendant's conduct was the "legal' or proximate' cause, as well as the cause in fact, of the death." (citations
omitted)); Walker v. State, 251 Ga.App. 479, 481. 553 S.E.2d 634 (2001) (upholding voluntary manslaughter conviction, stating that ”
[t]he test for determining causation in homicide cases is" whether the unlawful injury is ""the efficient, proximate cause of death'" (citation
omitted)); Pitts v. State, 253 Ga.App. 373, 374, 559 S.E.2d 106 (2002) ("In order to be convicted of vehicular homicide under OCGA §
40-6-393, the conduct of the defendant must have caused the death. This requires showing that "the defendant's conduct was the "legal"
or "proximate" cause, as well as the cause in fact, of the death."’ (citations omitted)); McGrath v. State, 277 Ga.App. 825, 828829, 627 S.E.2d 866(20061 ("[l]n order to be convicted of vehicular homicide by recklessly driving in violation of OCGA § 40-6-390, [the
defendant's] conduct must have caused the death of [the victim].... "This requires showing that "the defendant's conduct was the "legal1
or "proximate' cause, as well as the cause in fact, of the death... (citations omitted)).
[5] The only other support the Crane Court offered for its holding was that "[o]ther jurisdictions apparently are split on this issue, the
numerical majority favoring a negative answer," citing an ALR annotation without any analysis of whether the felony murder statutes and
case law in those jurisdictions mirror Georgia's. See Crane, 247 Ga. at 779 & n. 3, 279 S.E.2d 695 (citing 56 ALR3d 239).
The Crane Court's perfunctory analysis of the felony murder statute to reach a holding that limits the scope of felony murder liability is
not unique. See Ford v. State, 262Ga. 602. 602, 423 S.E.2d 255 (1992) (holding, based largely on case law from other states, and
despite the felony murder statute's use of the unrestricted term "a felony," that "dangerousness is a prerequisite to the inclusion of a
felony as an underlying felony under the felony murder statute of this state"). See also Shivers v. State, 286 Ga. 422, 425-428 & n.
3, 688 S.E.2d 622 (2010) (Nahmias, J., concurring specially) (criticizing the Ford Court's holding and reasoning, including its
misstatement about the common law history of Georgia's felony murder statute).
[6] It may be noted that this holding had no immediate effect on the case, because the defendant killed the police officer during the
shootout, and his malice murder conviction and death sentence for that crime were affirmed. See Hill, 250 Ga. at 279, 281,284,
287, 295 S.E.2d 518. However, the Eleventh Circuit later vacated the capital conviction based upon violations of Hill's due process rights
https://www.courtlistener.com/opinion/1346679/state-v-jackson/

8/9

9/3/2020
at trial. See Hill v. Turpin, 135 F.3d 141

State v. Jackson, 697 S.E.2d 757 - Courtl ^'ner.com
2 (11th Cir.1998).

Looking to a footnote in Hill, see 250 Ga. at 280, n. 3, 295 S.E.2d 518. Chief Justice Hunstein's dissent argues that "the holding
in Crane is compelled by the plain and unambiguous language in OCGA § 16-2-20, the statute that identifies those persons who may be
charged with and convicted of the commission of a crime." Dissenting Op. at 768. The Crane Court did not suggest that its holding was
compelled by § 16-2-20, mentioning the predecessor version of that statute only in passing, see 247 Ga. at 779, n. 4, 279 S.E.2d 695.
and the Chief Justice does not try to defend the causation reasoning on which Crane did rely. Moreover, in its footnote, the Hill majority
was not explaining why felony murder liability was limited by OCGA § 16-2-20. The Court instead had accepted Crane's limitation of
liability to deaths "directly cause[d]" by the defendant and was looking to the party-to-a-crime statute to see if it might be used to expand
liability to "a crime one did not directly commit." 250 Ga. at 280 & n. 3, 295 S.E.2d 518. On the incorrect "direct causation" assumption,
the answer was no. The Chief Justice cites no authority for the proposition that the party-to-a-crime statute imposes a limitation on
proximate causation. To the contrary, OCGA § 16-2-20 expancfecriminal liability from a defendant's own criminal acts (and their
proximate consequences) to the criminal acts of his accomplices and agents (and their proximate consequences). Thus, the question in
this case is not whether the defendants intentionally caused their victim to commit a crime by killing their co-conspirator; the victim acted
in self-defense and committed no crime. The question is whether a jury could reasonably find that the predicate felonies
the defendants intentionally committed, alone or as co-parties under OCGA § 16-2-20(b)(3) and (4), proximately caused Daniels' death
when their intended victim defended himself against the armed robbery. Our traditional proximate cause law answers that question
affirmatively. Finally, we note that the effort to limit felony murder liability based on OCGA § 16-2-20 runs into the same problem as the
effort to limit liability based on a constricted view of causation; the same reasoning should apply to all similar criminal and homicide
cases, but that has never been done, as the discussion below demonstrates. In short, this opinion does nothing to alter or expand
OCGA § 16-2-20. We are simply interpreting the language of the felony murder statute.
[7] Contrary to the assertion in Chief Justice Hunstein's dissent, the Court has never suggested that the General Assembly needs to
"amend OCGA § 16-2-20 to provide for criminal liability in situations of this nature." Dissenting Op. at 769. Indeed, that dissent argues
for the first time ever that OCGA § 16-2-20, as opposed to the causation element in OCGA § 16-5-1 (c), requires the result reached
in Crane. See footnote 6 above.
[8] Even aside from these peculiar circumstances, it can be perilous to rely heavily on legislative silence and inaction to conclude that a
court's interpretation of a statute is correct.
Legislative silence is a poor beacon to follow in discerning the proper statutory route.... The verdict of quiescent years cannot be invoked
to baptize a statutory gloss that is otherwise impermissible. This Court has many times reconsidered statutory constructions that have
been passively abided by [the legislature]. [Legislative] inaction frequently betokens unawareness, preoccupation, or paralysis. "It is at
best treacherous to find in [legislative] silence alone the adoption of a controlling rule of law." Girouard v. United States, 328 U.S. 61. 69
[, 66 S. Ct. 826, 90 L. Ed. 10841 (1946).... Where, as in the case before us, there is no indication that a subsequent [General Assembly]
has addressed itself to the particular problem, we are unpersuaded that silence is tantamount to acquiescence, let alone... approval....
Zuber v. Allen, 396 U.S. 168, 185 & n. 21, 90 S. Ct. 314, 24 L. Ed. 2d 345 (1969). See also Helvering v. Hallock, 309 U.S. 106. 119120, 60 S. Ct. 444. 84 L. Ed. 604 (1940) ("To explain the cause of non-action by [the legislature] when [the legislature] itself sheds no
light is to venture into speculative unrealities.”).
[9] Under OCGA § 16-5-1 (c), "[a] person ... commits the offense of murder when, in the commission of a felony, he causes the death of
another human being irrespective of malice."
[10] The majority cites to Hill "albeit with no significant discussion." Thornton v. Ga. Farm Bureau Mut. Ins.
Co., 287 Ga. 379, 695 S.E.2d 642 (2010). See Majority Opinion, p. 763.
[11] The pertinent language in the indictment charges appellees "with the offense of MURDER for that [appellees]... while in the
commission of a felony, to wit: AGGRAVATED ASSAULT as alleged in Count 4 of this Indictment, did cause the death of Jerold Daniels,
a human being." Count 4 alleged that appellees "did unlawfully make an assault upon the person of Arthur Hogan, with a firearm ..." The
parties stipulated that Hogan was the person appellees intended to rob.

https://www.courtlistener.com/opinion/1346679/state-v-jackson/

9/9

APPENDIX K-

Georgia Supreme Court, In Re: Formal Advisory Opinion 10-1, 744 S.E.2d 798 (2013).

Supreme Court of Geo.^
IN RE: FORMAL ADVISORY OPINION 10-1.
No. S10U1679.
Decided: July 11, 2013
Dennis R. Dunn, Deputy A.G., Stefan Ernst Ritter, Senior A.A.G., Samuel S. Olens, A.G.,
Department of Law, J. Randolph Evans, Mckenna, Long & Aldridge, LLP, Paula J. Frederick,
General Counsel, Robert E. McCormack III, State Bar of Georgia, John Joseph Shiptenko, Office
of The General Counsel, Michael Lanier Edwards, Eastern Judicial Circuit Public Defender's Office,
Savannah, James B. Ellington, Hull Barrett, PC, Augusta, for In re Formal Advisory Opinion 10-1.
Responding to a letter from the Georgia Public Defender Standards Council (GPDSC), the State
Bar Formal Advisory Opinion Board (Board) issued Formal Advisory Opinion 10-1 (FAO 10-1), in
which the Board concluded that the standard for the imputation of conflicts of interest under Rule
1.10(a) of the Georgia Rules of Professional Conduct applies to the office of a circuit public
defender as it would to a private law firm. FAO 10-1 was published in the June 2010 issue of the
Georgia Bar Journal and was filed in this Court on June 15, 2010. On July 5, 2010, the GPDSC
filed a petition for discretionary review which this Court granted on January 18, 2011. The Court
heard oral argument on January 10, 2012. For reasons set forth below, we conclude, as did the
Board, that Rule 1.10(a) applies to a circuit public defender office as it would to a private law firm,
and pursuant to State Bar Rule 4.403(d), we hereby approve FAO 10-1 to the extent it so holds.1
1. At the heart of FAO 10-1 is the constitutional right to conflict-free counsel and the construction of
Rule 1.10(a) of the Georgia Rules of Professional Conduct. “Where a constitutional right to counsel
exists, our Sixth Amendment cases hold that there is a correlative right to representation that is
free from conflicts of interest.” Wood v. Georgia, 450 U.S. 261,271 (101 SC 1097, 67 LE2d 220)
(2008). Indeed, this Court has stated in no uncertain terms that, “Effective counsel is counsel free
from conflicts of interest.” Garland v. State, 283 Ga. 201 (657 S.E.2d 842) (2008). In keeping with
this unequivocal right to conflict-free representation, Rule 1.10(a) provides as follows:
While lawyers are associated in a firm, none of them shall knowingly represent a client when any
one of them practicing alone would be prohibited from doing so by Rule 1.7: Conflict of Interest:
General Rule, 1.8(c): Conflict of Interest: Prohibited Transactions, 1.9: Former Client or 2.2:
Intermediary.
(Emphasis in original.) Comment [1] concerning Rule 1.10 defines “firm” to include “lawyers . in a
legal services organization.” Comment [3] further provides “Lawyers employed in the same unit of
a legal service organization constitute a firm,."
https://caselaw.findlaw.com/ga-supreme-court/1638811.html

1/4

9/3/2020

Under a plain reading of Ru

IN RE: FORMAL ADVISORY OPINION 10—1 1 ^ndLaw

.10(a) and the comments thereto, „

jit public defenders working

in the circuit public defender office of the same judicial circuit are akin to lawyers working in the
same unit of a legal services organization and each judicial circuit's public defender's office- is a
“firm” as the term is used in the rule. This construction is in keeping with our past jurisprudence. Cf.
Hung v. State, 282 Ga. 684(2) (653 S.E.2d 48) (2007) (attorney who filed motion for new trial was
not considered to be “new” counsel for the purpose of an ineffective assistance of counsel claim
where he and trial counsel were from the same public defender's office); Kennebrew v. State, 267
Ga. 400 (480 S.E.2d 1) (1996) (appellate counsel who was from the same public defender office as
appellant's trial lawyer could not represent appellant on appeal where appellant had an ineffective
assistance of counsel claim); Ryan v. Thomas, 261 Ga. 661 (409 S.E.2d 507) (1991) (for the
purpose of raising a claim of ineffective assistance of counsel, “attorneys in a public defender's
office are to be treated as members of a law firm .”); Love v. State, 293 Ga.App. 499, 501 at fn. 1
(667 S.E.2d 656) (2008). See also Reynolds v. Chapman, 253 F3d 1337, 1343-1344 (11th
Cir.2001) (“While public defenders' offices have certain characteristics that distinguish them from
typical law firms, our cases have not drawn a distinction between the two.”). Accordingly, FAO 10-1
is correct inasmuch is it concludes that public defenders working in the same judicial circuit are
“firms” subject to the prohibition set forth in Rule 1.10(a) when a conflict exists pursuant to the
conflict of interest rules listed therein, including in particular Rule 1. 7.3 That is, if it is determined
that a single public defender in the circuit public defender's office of a particular judicial circuit has
an impermissible conflict of interest concerning the representation of co-defendants, then that
conflict of interest is imputed to all of the public defenders working in the circuit public defender
office of that particular judicial circuit. See Restatement (Third) of the Law Governing Lawyers §
123(d)(iv) (“The rules on imputed conflicts . apply to a public-defender organization as they do to a
law firm in private practice .”).
2. Despite the unambiguous application of Rule 1.10(a) to circuit public defenders, GPDSC
complains that FAO 10-1 creates a per se or automatic rule of disqualification of a circuit public
defender office. We disagree. This Court has stated that “[gjiven that multiple representation alone
does not amount to a conflict of interest when one attorney is involved, it follows that counsel from
the same [public defender office] are not automatically disqualified from representing multiple
defendants charged with offenses arising from the same conduct.” Burns v. State, 281 Ga. 338,
340 (638 S.E.2d 299) (2006) (emphasis in the original). Here, Rule 1.10 does not become relevant
or applicable until after an impermissible conflict of interest has been found to exist. It is only when
it is decided that a public defender has an impermissible conflict in representing multiple
defendants that the conflict is imputed to the other attorneys in that public defender's office. Even
then, multiple representations still may be permissible in some circumstances. See, e.g., Rule
1.10(c) (”A disqualification prescribed by this rule may be waived by the affected client under the

https://caselaw.findlaw.com/ga-supreme-court/1638811.html

2/4

9/3/2020

IN RE: FORMAL ADVISORY OPINION 10-'

ndLaw

conditions stated in Rule 1.1. conflict of Interest: General Rule.) '1 ..us, FAO 10-1 does not create a
per se rule of disqualification of a circuit public defender's office prior to the determination that an
impermissible conflict of interest exists and cannot be waived or otherwise overcome.
Although a lawyer (and by imputation his law firm, including his circuit public defender office) may
not always have an impermissible conflict of interest in representing multiple defendants in a
criminal case, this should not be read as suggesting that such multiple representation can routinely
occur. The Georgia Rules of Professional Conduct explain that multiple representation of criminal
defendants is ethically permissible only in the unusual case. See Rule 1.7, Comment [7] (“The
potential for conflict of interest in representing multiple defendants in a criminal case is so grave
that ordinarily a lawyer should decline to represent more than one co-defendant.”). We realize that
the professional responsibility of lawyers to avoid even imputed conflicts of interest in criminal
cases pursuant to Rule 1.10(a) imposes real costs on Georgia's indigent defense system, which
continually struggles to obtain the resources needed to provide effective representation of poor
defendants as the Constitution requires. See Gideon v. Wainwright, 373 U.S. 335 (83 SC 792, 9
LE2d 799) (1963). But the problem of adequately funding indigent defense cannot be solved by
compromising the promise of Gideon. See Garland v. State, 283 Ga. 201,204 (657 S.E.2d 842)
(2008).
Since FAO 10-1 accurately interprets Rule 1.10(a) as it is to be applied to public defenders
working in circuit public defender offices in the various judicial circuits of this State, it is approved.Formal Advisory Opinion 10-1 approved.
FOOTNOTES
1, In FAO 10-1, the Board purported to answer a broader question—whether “different lawyers
employed in the circuit public defender office in the same judicial circuit [may] represent co­
defendants when a single lawyer would have an impermissible conflict of interest in doing so”—and
we asked the parties to address a similar question in their briefs to this Court. That statement of
the question, however, is too broad. The real issue addressed by the Board—and addressed in this
opinion—is solely a question of conflict imputation, that is, whether Rule 1.10(a) applies equally to
circuit public defender offices and to private law firms. No doubt, the question of conflict imputation
under Rule 1.10(a) is part of the broader question that the Board purported to answer and that we
posed to the parties. But whether multiple representations are absolutely prohibited upon
imputation of a conflict—even with, for instance, the informed consent of the client or the
employment of “screening” measures within an office or firm—is a question that goes beyond Rule
1.10(a), and it is one that we do not attempt to answer in this opinion. To the extent that FAO 10-1
speaks to the broader question, we offer no opinion about its correctness.
2. There are 43 circuit public defender offices in Georgia.
https://caselaw.findlaw.eom/ga-supreme-court/1638811 .html

3/4

9/3/2020

IN RE: FORMAL ADVISORY OPINION 10-

idLaw

3. Rule 1.7 of the Georgia Kuies of Professional Conduct provides.^a) A lawyer shall not represent
or continue to represent a client if there is a significant risk that the lawyer's own interests or the
lawyer's duties to another client, a former client, or a third person will materially and adversely
affect the representation of the client, except as permitted in (b).(b) If client informed consent is
permissible a lawyer may represent a client notwithstanding a significant risk of material and
adverse effect if each affected client or former client gives informed consent confirmed in writing to
the representation after: (1) consultation with the lawyer pursuant to Rule 1.0(c); (2) having
received in writing reasonable and adequate information about the material risks of and reasonable
available alternatives to the representation; and (3) having been given the opportunity to consult
with independent counsel.(c) Client informed consent is not permissible if the representation: (1) is
prohibited by law or these Rules; (2) includes the assertion of a claim by one client against another
client represented by the lawyer in the same or a substantially related proceeding; or (3) involves
circumstances rendering it reasonably unlikely that the lawyer will be able to provide adequate
representation to one or more of the affected clients. The maximum penalty for a violation of this
Rule is disbarment.
4, Our opinion cites several precedents that concern the constitutional guarantee of the assistance
of counsel, and it is only fitting that we think about the constitutional values that Rule 1.10
promotes as we consider the meaning of Rule 1.10. We do not hold that the imputation of conflicts
required by Rule 1.10 is compelled by the Constitution, nor do we express any opinion about the
constitutionality of any other standard for imputation. Rule 1.10 is a useful aid in the fulfillment of
the constitutional guarantee of the right to the effective assistance of counsel, but we do not hold
today that it is essential to fulfill the constitutional guarantee. We do not endorse any particular
alternative to Rule 1.10(a), but we also do not foreclose the possibility that Rule 1.10(a) could be
amended so as to adequately safeguard high professional standards and the constitutional rights
of an accused—by ensuring, among other things, the independent judgment of his counsel and the
preservation of his confidences—and, at the same time, permit circuit public defender offices more
flexibility in the representations of co-defendants. As of now, Rule 1.10 is the rule that we have
adopted in Georgia, FAO 10-1 correctly interprets it, and we decide nothing more.
PER CURIAM.
All the Justices concur.

https://caselaw.findlaw.com/ga-supreme-court/1638811.html

4/4

APPENDIX L-

Hancock County Superior Court, Westmoreland v. Johnson. No. 1 l-HC-034. Docket Report.

"

*

‘

*"

*

■:

■

!■■■■*■*»•■

..-vv.

MW'.

mi

\. Jj,

pf >or Lajri of

CAiCmrrfrj

m

/fe»*r

K'd™i ^Ak&z. e£~ Ettamkiji
:■

i

|=

i

U*v()mfe kk^mj/pJdrd

'■iy'Syrr'C-

&!& 5 i W%.

fl

<r.%„ *• ':M:

Si

Wy, Ifen \JdVhv3a n

V
I
I

SM.

■Efryflengii. fsi,

bn

WVtJ

n-ttrr D54

i
S5^
r ,•*
h

i

, - .-

1

ft

ififrfiS in

r&ggcfv

ft' «wfe o^Ud cttlLUrf flislin. Wikj psa-rvte /aMach
^o-tonto ra-orcb.a-eKdasfits, and «ntuidmg W nut Uforttcl -t*
* ..

. ..*

%jvd|rm aupp*dtnj aile^oL joa^ Contained in fcima Corpus
feA in tecotl Mgw&p Ceup’L and any doiMenfcs “fed |y

^ fnxn VO-^-n unll % daMtvdffe
® \n (W\. CHflWDtiLgupmcr CWt.^
Tfi Contained

-a
j

a '*9 *S*tei ^ aca^tw

\Slk 5,G, gi#Ct -\4-' 44-/Cdntenfes ar& Vuri^xrttWv Cf" %irtdivt
*Mdh sfokc : *•*
M

ttcerdPitjf o

|j

yMt* ^ tout oixM
th e^afec.
fc.ckicted' lodbctecl

Q&4ufe,

or 3ta\ 5-y^

\

-I

w:

1
■j:

Scanned with CamScanner

1,

I

. :

Cv' \tosa W, in

it ,.

•'SSas'iiT j#4^

i>d v Jdkfr Co-^a

:i spasssacr*
pSSSS»Kr
■«&.
wa

„ 7 1**“*

*****

iHdtaii) (f»,| O.UrilWWlH»

%frf-

w,c “1 Ml?

1i X******'
m
mm
.i &«S
(/
« to) 0* UUh >S“tfaaiw7^ t

»}*** ^c^IhS^SSS s*«.a«m *»* Ls-m

3 n\5ff,h-3 xWb-<
Wa We w-w-a)
r-\^rT7f1' 7"^(*Wd*t) q-i=-o*

j

^ ODmib

,

***** k

..&

a..

JO„.,„

IV
—lx.

Ja

LI4
-IT.

yr

„jyi
^334.

-3<i
-_4£l_

ftm8Aded^£^ tkmu^ver IllWidl

^ »*pb> tSW^T6«>gfiL hb^&-dS)

42

ftVMf^iti^j ?\fSutU vb\i

AV—-*

:_ki_

™j S. I? fortM K li.Tl APWkrlafe^ k flicks foKkOlnd)

4X

^bart^ fitted 'b'm^U.a^bic. fGurtid 0? orhilo^

44-

4a
sa

^ Ckbr t5&*ajvmj Kkkn IV Mb) TfVd

£»1__ *

t^TuicWti-fU WWari Ln-2L-iA)

x.vrrr* Uail'3'&'<i'3a^li -b tfttwOr\+

fes:

2Mtnrf ef ^9^ '**>^«-Buoraia iirmt ft2-+ Li-:K-to\

5o\?!5S0c!Ppt!lfe3“'

((»-2d-iuVs\0Ao3ts'>

2^-) Ldtev-ft&n !*ibekklfr fcunseA f u.G&rter Ci&qhhi Id-aJHO
^•\
^
^brVL of (afoyQfu S^pflmt Qlirt -00.-10)
3AJ fflduirN rV m£tmdim\^ -b MWJ$vtM Supne&t fWt Cl-l2'\Ozpro^>

32J\&^d^

CbrE &f aPUTDik SiJWmt'fixrt H-te^lOV
Ixsrhct CbiH aWtlvL Ckf^l 0,2840}
^\Vfew Gib GWy 3l,te ttp. Doorto Cicsriun) uW.Optr, fe. M-.
** ^ ^ “*“■• 4 ^ fe* •
?7GL_*

3<PL

-~a\\$
fig ‘

. |X1
j[jj
I la
Ti&
4

Scanned with CamScanner

ML-*

am

4ol_>4c
f;1 All__4c
421 *
42>1__4c:

I

4ft

g

4i

45.}— 14} (2 - IrClfNttL %bli
jciAi
4b)
'CbrvUfC.^trs
41 i_-At

Car^ckj t^'PcffdBd four Inttt'nilY^S r\Ufl>

m

Its, WML EtlifarJniwi ^ftPJtogLk

,£

h^
^R|og{Q Cnr^ti'x

[Q Cbrh'tLQ3.)

trh'y

A

*C

o2^

uksicn^raiM^i lOMyaq
tWdtSjfWOr cturt ClirK.
■n&nCDCJ^ Cbucvtu Sucer we Ca«A
?. b.fci* 4-s?
'Sharia Bayajiob^C&f

riliili>>

Xkfe-;

‘ |id>ae,

Stock $r&*v
^p*% &w^L iM$*f
?S
Scanned with CamScanner

APPENDIX M-

Cobb County Superior Court, Westmoreland v. State. No. 07-9-6020, Extraordinary Motion for
New Trial- Order entered June 9, 2011.

In Office Jun-09-2811 16:25:49
l-.rf E011-0071711-CR
c. p^a9e 1
IN THE SUPERIOR COURT OF COBBrfoOUMlfe

STATE OF GEORGIA
*
*
*
*
*

STATE OF GEORGIA
VS.

uhn. cobbsuperioreourtclerk. cor

SCSI'S Count,
CRIMINAL
FILE NO: 07-9-6020-42

#
#

AMOS WESTMORELAND,

*
*

Defendant.
ORDER

The Defendant having filed an Extraordinary Motion for New Trial based
on newly discovered evidence and the Court having reviewed the same and the
record in this case;
IT IS HEREBY ORDERED AND ADJUDGED as follows:
1.

O.C.G.A. §5-5-23 states:
“A new trial my be granted in any case where any material evidence - —
relating to new and material facts is discovered by the applicant after the
rendition of a verdict against him and is brought to the notice of the Court
within the time allowed by law for entering a Motion for New Trial”
O.C.G.A. §5-5-41 a) expands the time beyond 30 days if some good reason
is shown, as judged by the Court.
2.

The Defendant was convicted by a jury of thirteen of the sixteen counts
against him, including felony murder, on October 23, 2008 and was sentenced on
November 6, 2008.
1

ID*#

S011-0071711-CR
Page £

3-

A timely Motion for New Trial was denied and the Supreme Court affirmed
the conviction on August 10, 2010 - 287 Ga. 688.
4-

The Defendant alleges that he is entitled to a new trial because evidence of
the “Cobb County Police Departments’ Restricted Pursuit Procedures” were not
introduced into evidence.
5-

However this is not newly discovered evidence. The record shows that
Cobb County Police Pursuit Procedures where argued at trial and at Motion for
New Trial, even though a copy was not submitted. The Supreme Court in its
decision in this case @ 287 Ga. 688 discussed these procedures in Divisions 1 and
2 of their decision.
6.
The Defendant cannot show that the Cobb County Police Restricted
Pursuit Procedures were not known about until after trial.
Therefore Defendant’s Motion for New Trial is denied.
SO ORDERED this

^

day of

JUDGTE ADELE P. GRUBBS
Superior Court of Cobb County
State of Georgia

2

2011.

Iu»

S011-0071711-CR
Page 3

CERTIFICATE OF SERVICE
This is to certify that I have this day served all interested parties in the
within and foregoing matter by depositing a copy of this Order dated the
day of 7jii m*J
.2011 in the Cobb County Mail System in the
properly addressed envelopes with adequate postage thereon addressed as
follows:
Jason Marbutt, Esq.
Bruce Hombuckle, Esq.
Assistant District Attorney
Cobb Judicial Circuit
Interdepartmental Mail
Amos Westmoreland #1041629
Hancock State Prison
701 Prison Blvd.
Sparta, GA 31087

This

q-H'1 day of TJLukj

. 2011.

ctujkjLAj>
Kimberly Carroll-Hawkins
Judicial Administrative Assistant to
Judge Adele P. Grubbs

A PPENDTX N-

Cobb County Superior Court, Westmoreland v. State. No. 07-9-6020, Extraordinary Motion in
Arrest of Judgement- Order entered July 1, 2011; April 9, 2012.

»
p*i*

i■ '

CY~
IN THI SUPERIOR COURT OF COBB QBMtmk mm,aVlM^t<mmr*l»Tk.sm
m t.
.
dm of luptrisr Cwri toM County
STATE OF GEORGIA
STATE OF GEORGIA
♦

CRIMINAL
FILE NO: 07-9*6020-42

AMOS WESTMORLAND, JR.,
»

Defendant

QAPIJR
The Court issued an Order denying the Defendant's Extraordinary Motion
in Amt ofJudgment; 1 oopy of which is attached and made a part hereof, and
the Defendant filed a Notioe of Appeal to that Order.
The Defendant filed a“i* Arnendmenttothe Extraordinary Motion in
Arrest <rf Judgment* The Court did not rule on said amendment because the
Appealwu pending.
The 1" Arnendmenttothe Extraasdinary Motion ho Arrest of Judgment
hfl^r^beenreviewed;
ITIS HEREBYORDERED AND ADJUDOED^H the l* Amended
Extraordinary Motion in Arrest of Judgment is denied

SOQRDEREDthia

A

davaf

y.

2012.

f

JUDGE AD
DELE P. GRUBBS
Superior Court of Cobb County
State of Georgia

I

Scanned with CamScanner

IN THE SUPERIOR COURT OF COB
STATE OF GEORGIA
STATE OF GEORGIA

mm.
cat
J»y L stwMmiM .
Cl*Ht of Su^ior Coart CoM tmi*r

CRIMINAL
FILE NO: 07-9-6020-42

VS,

AMOS WESTMORELAND, JR.,

ORDER
TT» Defendant having filed an “Ertraordinary Motion in Arrest of
ITIS HEREBY OiimREBAmAMmOEOmMlorni:
1.

•Hie Defendant wu convicted

a jury of thirteen of the sixteen counts for

whkh he was indi«*l

on October 23,2008 and was

sentenced on November 6,3008.
2.

affirmed the oonviction on June 28,2010 — 2870a. 688. Acopy ofthat decision
is incorporated into this Order and attached hereto.
3>

fa otder to challenge a conviction after it hmb~n .Hi.—i

on direct
•Wool, criminal defernfanmiarKpiired to Be an extraordinary motion for
trial* a morion in arrest ofjudgment or

a petition for habeas corpus. Harper v

Sfafr 286 Ga. 216.
i

Scanned with CamScanner

4»

“m*t 0#ju<l«n»«Qt lies for a non-amendablc defect which
the face of the record or
lt mmt b6 »a<fa diiHiJitli.t«rai
** '•hWi the judgment wma obtained.

s*
uprerae Court of Georgia was made the Judgment
of the Court on August 10,2010..
This Motion in Arrest of Judgment was filed
June 30, aou. It ia too late.
6.

However, there ere no aon-amendable defiects appearing on the face of the
0

Tho Indktoneitt tetutued by the Grand Jury in the correct manner.

»i)

Each oount of the Indictment charges the essential elements of the

«0

The Sentences imposed are correct as a matter of law.

K)

The contention regarding the Cobb County Police Department
Piasult to Policy was previously rejected by the Supreme Court in
Section 3 of its decision*

v)

There is no error in the charge and no “conflict of interest*.

THEREFORE Defendant’s Motion in Arrest of Judgment is
SO ORDBREDthia

A

dauirf

201X

JUDGE
P. GRUBBS
Superior Court of Cobb County
State of Georgia

i

2

Scanned with CamScanner

1

CKRTmCATKOFSKRVlCE
Thb fat to certify that ! have thie day cerved all Interested partial in the
and forecoilULmattar by depositing a ropy nf thi* Order datd the
day of
_____ tSOJU In the Cobb County Mail Syitam In flat
• with adequate postage thereon addressed as

Dfatnct Attorney

Mi

Sparu,GA3io«7

H

s
8
H

s
mK
Qt

N
*

AX
Scanned with CamScanner

J

APPENDIX O-

Client-Lawyer Letter from Louis Turchiarelli.

(Ink's Office

SI’FRF-ME COURT of GEORGIA
2-W Wj.ohingttm Sticct, SW
51i Suic Office Anne*
AiUnU. Georgia 303?**

IfCTJ JUL 1S it
Mr. Amos Westmoreland #1041629

HMcocte State Prison
701 Prison BlvdL
Sparta, GA 31087

If. T. R. Alexander
Cobb County Police Dept.
140 North Marietta pfcwy
Marietta Ga. 30060

RETURN SERVICE
REQUESTED

$0

11

» **

Amos Westmoreland 1041629
Hancock Stats Prison
701 Prison Boulevard
Sparta, Georgia 91087

SECT) SEP 2 3 110
GB.TDS 1 t

31 037

141

.-i-i'

t ouis M. Turch.arolli
Attorney at Law
416 Roswell Street,HE
Suite 200

4--v: iVr; •?:

-

»» m

i4ariettai(3A30ti0

DO NOT FORWARD
ADDRESS CORRECTION REQUESTED

W.C0
Mr, Amo a Woul.nioro 1.»ru I
rt i n.ii <;'in

<\\ /.AV\fe^

Scanned with CamScanner

AaomtyatLaw::
41iRMi:StaNilttE
Su,ta200
J%i8a,<3A:30(M:

*&H§? “ ».»«•

VfiM J

mmrmmAm

ADOR£SSCORRECnONREQU£STED

m piv % s M

Mr. Amos. Westmoreland
ism iD ^ipigp-........

Hapcpclc State Prison
Sox 339
Sparta*.. 6A;/3iQ97

3:l8a7+033i

Lou«M Turchiarefi
Attorney at Law
416 Rosvwefl Street,N£
Suite 200...........
Manetla. GA 30060

l|>//,llllll).M||||1|l,,|j{mlr/|„|f}||i|M1,||)j|jIJrJ|1|}

§?8?l

RECB BIC 10 2089

OOWOTPC3RWARD

AiBRESS CORRECTION REQUESTED

Mr;:» Amos Westmoreland:
Wm ID #1041629
Hancock State: .Prison
p...O>'"SOX, j:39:: .
Sptfca, GA 31037

3iE372-323 31'! 4

Scanned with CamScanner

-

f

l

LOUIS M. TURQIIARELLI
Altorney at iijiw
Suite 200
•HO Htnwcll Street, N I£.
Mai ietta, Georgia 500C0
Eimits loiiii^iurthiurtllil*^ com
TUryhant K*(T»)<M»*s6»

:Dec«anber 4, 2009

[
Mr. Amos Westmoreland
GDC 10 #1041629
Hancock State Prison
P.O. Box 339
Sparta, GA 31087

n

I

l

■Rif

AnifiS::'Westmoreland v. State of Georgia ::
■Appeal; No. SldA0365

Dear-Mr:-,
Westmoreland:
.............
:::•••• ,f •'

= ,1
le» dated November 26, 2009
and would like to inform you on the current situation
regarding your case.
,

G
E

0
[I

D

..... You ha<3 mentioned in your letter-that you needed to
have an attorney-client understanding, the problem is that
y°u Gontinually have put in, yaur-;letbers^t^
feel ^ am
my handling of the Motion for New Trial, eve^thougbwith
your latest letter you indicated you felt I was a good
lawyer and was doing a good job. I Have explained that we
introduced both of the Cobb County Policies dhd Procedures
for high speed chases at the Motion; for New Trial and they
will be included in the appeal. The civil lawsuit you
mentioned in your letter has no bearing on your case since
it was not mentioned at trial and thus it has no probative
value m the Appeal,
*? 1 exPlained in my previous correspondence I made
sure there was an order in place at the trial court level
to guarantee the -complete" record was transmitted to the
higher court which included all of the DVD/video recordings

0
tM
Scanned with CamScanner

I
Mr. Amos Westmoreland
December .4, 2009
Page Two

evidence that the .State.presented a t :!t;fial, this after
giving a thorough, legal presentation to the trial Court of
all the errors that were made during the trial,

I

. .
1 f6tl that your
^llegations.against me;. In
your November IS., 2009 'letter certainly raised a conflict
in ’our attorney client relationship therefore I contacted
the Circuit Defenders office in Cobb County and made them
aware of your concerns. The director, Randy Harris and
myself feel that it is in your best interest to assign,a.
new attorney for the purposes of your appeal and they will
file a substitution of counsel, Your new counsel of record
is Carter Clayton; 404 658-1670.
As you requested in your letter of November 26, 2009 I
am returning the original letter and all attachments
therein.

Very truly .yours,

I
I
LMT/bj

ifJb
Scanned with CamScanner

APPENDIX P-

Client-Lawyer Letter from William Carter Clayton June 29, 2010.

■I

Stave Bak
or Georgia

u uxr

if
:rfS

U't Mjuk!U Xuret MW
>u*S< UH5
UUnU. O A XVHO

Sr

■?i i¥*f #*•£

Mr. Amos Westmoreland
tfiq«629
Hancock State Prison
PG, Box 339
Sparta, GA 31087

!

3iGa7-r0333

UMNiESf: MORRISON fit; WOMACK, P. C.
ATTORNEYS AT LAW
iij 250 PEACHTREE CENTER TOWER
230 PEACHTREE STREET, N W.
ATLANTA. GEORGIA 30303

OMSi.sasat. ,,:i,
MAii,EDFRQM.;SA:

ROT DEC 22 2009

l
-M""

vi. va?.T-QCUtYTOH x

ApbRESS CORRECTION REQUESTED

.Amos Westmoreland
: GI>gI 3041629:;
HancockStatePrison
P.O.Box 339
Sparta, GA 31087

Or

:3ioer7$o3S3 ;soo4:

i

m

541

State Bar
or Georgia

; O.TSH;

Hi

104 Marietta Street MW
Suite 100
Atlanta, GA 30303

■■.mi/.

US P«

REP DEC 2 3 1001
Mr. Amos Westmoreland
<1 4 fifil # 101629 E-2

1

Scanned with CamScanner

[
*

1
1

JONES, MORRISON & WOMACK, P.C.
ATTORNEYS AT LAW
1250 PEACHTREE CENTER TOWER
230 PEACHTREE ST;N;W.
*r
ATUNTA-OA 30303
LEWIS & JONES
WILLIAM A. MORRISON
JANET L WOMACK
W. CARTER CLAYTON

P.O.BOX 56247
ATLANTA. QA 20343
PHONE (404)658-1670
FAX (404) 584-5994

December 17,200?

i
Amos Westmoreland
GDC# 1041629
Hancock State Prison
P.O. Box 339
Sparta. GA 310S7
RES

Amos Westriiorcland v. State of Georgia
'“r~>

Dear Mr. Westmoreland,

i
I
I

^sESSESSSsgjgs

rcccvcd « ««*. of Umc ,o file

briofin

me.

ems

Yours Very Triily

W. Carter Clajlon
Attorney At Law

Scanned with CamScanner

[

.1-ll t

5 l

-!

i*\

B
ff

Uiwit; s

jokes

JONES, MORR1SOM & WOMACK, P.C.
ATTORNEYS AT LAW
1250 PEACHTREE CENTER TOWER
230 PEACHTREE ST.. N.W.
ATLANTA, GA 30303

WILLIAM A. MORRJSQN
M.M.T L. WOMACK
V/. CARTER CLAYTON

Amos Westmoreland
GDC’// 1041629
i fancock State Prison
P.O. Box 339
Sparta, GA 31087
RE:

■ATLANTA,'G*30K»:
PHONE (404) (65WS70
:EAXi{464):58fc$994..:

June 29,,2010

Amos Westmoreland v. State of Georgia
AppealNo, S10A03<S5

19cpr Mr. Westmoreland,
, ......

Tpsr«: to :nfon.t j-ou Umi th» S^rcmc Court of Georgiah^rejccted your Appeal ■ 1

,ave;c”c
a copy of the court’s decision. As of the date of this decision June^8,2010 your
convielion is final, YoubaveTour years from thit date to challenge your conviction by way of
Habeas Corpus. Ifyou have any questions please do hot hesitate tocon&ctme:
Yours Very Txuiy
2*

•

^
y

• W Carter Clayton/" /
Attorney At Law
*

Scanned with CamScanner

/•

A PPENDTX O-

Response from the Georgia Supreme Court Clerk July 15, 2010.

1

£\

V

v<-

m

■*,,

lArrrV'.

—------- *

(-.

B

*
c\ <i(tru

t

jy~ pn ^ .-j>

:
I

*■*
t%

ojaHU Wm*fa*b

i\ ,

-~flSp , rtr r, r-Minr-i :flO.;JD^..£aS£*.

-ft* iy n,r^

^ ^

hYrS Tpn^P ^
%r OQ; ^r |if>£. /~t jMCV Arf^i {^f- V^^aL^-

. •„„■■«,. MU.

jsl^y. W V^ ■'D'J/Ua.

fovr y*«\
^■rVS . X vT>rA»\ffjdy 4rx\<^-\ j
<-f>> g^i 4n Xlkp.
|:|-> AyrSLtr
»ff K

:r-

„ Its

fiyvlor-;:

—-X)-^1^.

foi/y ~b> .tVflyr* - M\p

'.iWi'trr^

^Arffr- y, niO»Ufe

T~ W>f4 -fa

ririvanCF-.,

^ ^uJL^ ^QxcX . —

ac>JA^-^

■Whl-ti- \p M-? ir.

f

|yf pg/-/vfrv*-.

~T -Xifoi*A- ^ >'

nr^

~Tf?iifr> <§*l*d.------■

W...^rt ■»., <%Hi< cm»ri£J*' ^rsy-tnniy

\*{ CsuA:

rb fi I-sa

'4?> Gy jt

■ u^Ha ^

-fuTYl<f, 'Ct^xZ.

3
cf U^-.-v

jsV.^pr-d £W$ ■

JS> «r

tfr-rt
l

\g^Pf -Sv

-■fti
•V**.

,^[w^4

/2

At) IrnsM^'lbc

rv

a

4mos

i:

J‘
*
l

yZ

bo-ftm^.

Im:K

f\r*t.
A'-L^m

£i

g=»

c*~

/- Jl 'thwjff'ihrfl

z
■

^*

^/tOjt$-

Fe*

i

TSIsMj^—Mm
t
——g8tfg&- IEP J11L 12 IQ^O
S°o°?SS ..nii

f
Scanned with CamScanner

- /’•>

/
i.
CERTIFICATE OF MAILING

I hereby certify that, on the 3 f

day of August, 202Gbthis pleading was served on the Court

via U.S. mail courier.
—/y

Mr. Amos Westmoreland, Jr., Pro Se

CERTIFICATE OF SERVICE

I hereby certify that, on the —^

day of August 2020, a true and correct copy of this Petition
and Appendix was sent to Georgia Attorney General Christopher M. Carr, at the Georgia
Department of Law. 40 Capitol Square, S.W., Atlanta, Georgia 30334-1300.

Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-l 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

